<html>
<title> - VOLT VEHICLE FIRE: WHAT DID NHTSA KNOW AND WHEN DID THEY KNOW IT?</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



 
   VOLT VEHICLE FIRE: WHAT DID NHTSA KNOW AND WHEN DID THEY KNOW IT?

=======================================================================



                                HEARING

                               before the

                  SUBCOMMITTEE ON REGULATORY AFFAIRS,

               STIMULUS OVERSIGHT AND GOVERNMENT SPENDING

                                 of the

                         COMMITTEE ON OVERSIGHT

                         AND GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                            JANUARY 25, 2012

                               __________

                           Serial No. 112-111

                               __________

Printed for the use of the Committee on Oversight and Government Reform


         Available via the World Wide Web: http://www.fdsys.gov
                      http://www.house.gov/reform




                  U.S. GOVERNMENT PRINTING OFFICE
73-448                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001


              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                 DARRELL E. ISSA, California, Chairman
DAN BURTON, Indiana                  ELIJAH E. CUMMINGS, Maryland, 
JOHN L. MICA, Florida                    Ranking Minority Member
TODD RUSSELL PLATTS, Pennsylvania    EDOLPHUS TOWNS, New York
MICHAEL R. TURNER, Ohio              CAROLYN B. MALONEY, New York
PATRICK T. McHENRY, North Carolina   ELEANOR HOLMES NORTON, District of 
JIM JORDAN, Ohio                         Columbia
JASON CHAFFETZ, Utah                 DENNIS J. KUCINICH, Ohio
CONNIE MACK, Florida                 JOHN F. TIERNEY, Massachusetts
TIM WALBERG, Michigan                WM. LACY CLAY, Missouri
JAMES LANKFORD, Oklahoma             STEPHEN F. LYNCH, Massachusetts
JUSTIN AMASH, Michigan               JIM COOPER, Tennessee
ANN MARIE BUERKLE, New York          GERALD E. CONNOLLY, Virginia
PAUL A. GOSAR, Arizona               MIKE QUIGLEY, Illinois
RAUL R. LABRADOR, Idaho              DANNY K. DAVIS, Illinois
PATRICK MEEHAN, Pennsylvania         BRUCE L. BRALEY, Iowa
SCOTT DesJARLAIS, Tennessee          PETER WELCH, Vermont
JOE WALSH, Illinois                  JOHN A. YARMUTH, Kentucky
TREY GOWDY, South Carolina           CHRISTOPHER S. MURPHY, Connecticut
DENNIS A. ROSS, Florida              JACKIE SPEIER, California
FRANK C. GUINTA, New Hampshire
BLAKE FARENTHOLD, Texas
MIKE KELLY, Pennsylvania

                   Lawrence J. Brady, Staff Director
                John D. Cuaderes, Deputy Staff Director
                     Robert Borden, General Counsel
                       Linda A. Good, Chief Clerk
                 David Rapallo, Minority Staff Director

 Subcommittee on Regulatory Affairs, Stimulus Oversight and Government 
                                Spending

                       JIM JORDAN, Ohio, Chairman
ANN MARIE BUERKLE, New York, Vice    DENNIS J. KUCINICH, Ohio, Ranking 
    Chairwoman                           Minority Member
CONNIE MACK, Florida                 JIM COOPER, Tennessee
RAUL R. LABRADOR, Idaho              JACKIE SPEIER, California
SCOTT DesJARLAIS, Tennessee          BRUCE L. BRALEY, Iowa
FRANK C. GUINTA, New Hampshire
MIKE KELLY, Pennsylvania


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on January 25, 2012.................................     1
Statement of:
    Akerson, Daniel F., chairman and CEO, General Motors.........    39
    German, John, senior fellow, the International Council on 
      Clean Transportation.......................................    88
    Strickland, David L., Administrator, National Highway Traffic 
      Safety Administration......................................     9
Letters, statements, etc., submitted for the record by:
    Akerson, Daniel F., chairman and CEO, General Motors, 
      prepared statement of......................................    41
    German, John, senior fellow, the International Council on 
      Clean Transportation, prepared statement of................    91
    Jordan, Hon. Jim, a Representative in Congress from the State 
      of Ohio, staff report......................................    71
    Kucinich, Hon. Dennis J., a Representative in Congress from 
      the State of Ohio:
        Letter dated June 29, 2011...............................    60
        Prepared statement of....................................     5
    Strickland, David L., Administrator, National Highway Traffic 
      Safety Administration, prepared statement of...............    11


   VOLT VEHICLE FIRE: WHAT DID NHTSA KNOW AND WHEN DID THEY KNOW IT?

                              ----------                              


                      WEDNESDAY, JANUARY 25, 2012

                  House of Representatives,
      Subcommittee on Regulatory Affairs, Stimulus 
                 Oversight and Government Spending,
              Committee on Oversight and Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 8 a.m., in 
room 2154, Rayburn House Office Building, Hon. Jim Jordan 
(chairman of the subcommittee) presiding.
    Present: Representatives Jordan, Buerkle, DesJarlais, 
Kelly, Kucinich, Davis, Connolly, and Maloney.
    Also present: Representative Cummings.
    Staff present: Michael R. Bebeau, assistant clerk; Robert 
Borden, general counsel; Molly Boyl, parliamentarian; David 
Brewer and Ashley Callen, counsels; Drew Colliatie, staff 
assistant; John Cuaderes, deputy staff director; Linda Good, 
chief clerk; Tyler Grimm, professional staff member; 
Christopher Hixon, deputy chief counsel, oversight; Seamus 
Kraft, director of digital strategy and press secretary; Justin 
LoFranco, deputy director of digital strategy; Mark D. Marin, 
director of oversight; Kristina M. Moore, senior counsel; Laura 
L. Rush, deputy chief clerk; Jeff Solsby, senior communications 
advisor; Sharon Meredith Utz, research analyst; Rebecca 
Watkins, press secretary; Nadia A. Zahran, staff assistant; 
Jaron Bourke, director of administration; Claire Coleman, 
minority counsel; Ashley Etienne, minority director of 
communications; Jennifer Hoffman, minority press secretary; 
Adam Koshkin, minority staff assistant; Lucinda Lessley, 
minority policy director; and Mark Stephenson, minority senior 
policy advisor/legislative director.
    Mr. Jordan. The committee will come to order. We will start 
with our opening statements and then get right to our first 
panel. Administrator, we appreciate your being here today.
    The delayed public notification of serious safety risks of 
the Chevy Volt raises significant concerns regarding the 
politicized relationship between the Obama administration and 
General Motors. The Obama administration intervened and forced 
the company to participate in a politically orchestrated 
process. The result was that GM emerged as a quasi-private 
entity. To this day, the U.S. Government still owns 26 percent 
of the company.
    In addition to a significant ownership stake in the 
company, President Obama has used this unusual blurring of 
public and private sector boundaries to openly tout the results 
of this partnership as a top accomplishment of his 
administration, creating a dynamic where the President is 
politically reliant on the success of General Motors. Most 
recently, this relationship was touted at last night's State of 
the Union address. The President has backed this support with 
taxpayer dollars, providing $7,500 tax credits for the purchase 
of the Volt and other electric vehicles, as well as billions of 
dollars to support the domestic production of batteries. In 
addition, total Federal, State and local governments have 
subsidized the production of the Volt to the tune of estimates 
between 50- and $250,000 per vehicle sold.
    The question before this committee is to what extent this 
conflict of interest has influenced the way in which this 
administration has approached its duty to inform consumers 
about the apparent risks that the GM Chevy Volt can catch fire.
    While it remains to be seen whether GM has received special 
treatment during NHTSA's investigation of the Volt fire, it is 
clear that the administration has tremendous incentives to 
protect the political investment it has made in the company and 
the vehicle. In the face of that political dependency, it is 
deeply troubling that the public notification of the safety 
concerns related to the Volt were inexplicably delayed for 6 
months, a period of time that also coincides with the 
negotiation over the new fuel economy standards.
    It is also troubling that during a subcommittee hearing, 
this very subcommittee, in October 2011, where Mr. Strickland 
was directly asked to respond to Members' concerns about the 
safety of advanced vehicle technologies, he did not inform the 
committee of the Volt battery fire. This information was very 
germane to the questions asked of Mr. Strickland and certainly 
would have been of interest to committee members.
    But for a resourceful Bloomberg reporter who reported on 
the fire in November 2011, it is unclear whether NHTSA would 
have ever made news of the Volt fire public. It appears that it 
was this story that prompted NHTSA to acknowledge the fire's 
occurrence and later to open a safety defect investigation.
    In addition, the subcommittee is also concerned about the 
preparedness of NHTSA to regulate electric vehicles. In his 
2011 State of the Union address, President Obama set the goal 
of one million electric vehicles on the roads by 2015. Despite 
the government's strong encouragement of this technology, there 
was a fundamental lack of knowledge at NHTSA about how to 
handle an electric vehicle after it has been involved in a 
crash. This fire risk associated with the lithium-ion 
technology is well-known, yet the engineers at NHTSA failed to 
drain the charge from the battery, creating the hazardous 
situation which ultimately led to the explosion. It appears 
that this lack of knowledge was caused by a lack of 
preparation.
    According to documents obtained by the committee, NHTSA 
only inquired about manufacturer's post vehicle crash 
procedures in September 2011, 4 months after the Volt fire. 
This evidence strongly suggests that the Agency had not paid 
sufficiently close attention to the unique safety concerns--
excuse me, safety risks associated with the Lithium-ion battery 
technologies in cars before the Volt fire occurred. This lack 
of knowledge of how to respond to an electric vehicle fire is 
unnerving. It also prompts questions about whether or not this 
administration is promoting the rapid distribution of electric 
vehicles like the Volt before we have done our homework and 
understand how the risks associated with these vehicles should 
be addressed.
    I look forward to hearing the testimony of Mr. Strickland, 
Administrator of NHTSA, and I hope that Mr. Strickland is more 
forthcoming today than he was when he last appeared before us. 
I also look forward to the testimony of Mr. Akerson, the chief 
executive officer of General Motors.
    With that, I now yield to my friend and colleague, the 
ranking member, Mr. Kucinich from Ohio.
    Mr. Kucinich. Mr. Chairman, thank you very much for holding 
this hearing, and I always appreciate the opportunity to work 
with you. Today, we again welcome David Strickland, the 
Administrator of the National Highway Safety Administration 
before our subcommittee.
    At two other recent hearings, this subcommittee heard 
testimony from the Department of Transportation officials on 
first-time regulations proposed by the Department related to 
standards for vehicle fuel efficiency and then on the number of 
hours truck drivers can work between mandatory rest periods. At 
those hearings, the majority criticized the Department of 
Transportation for considering stricter regulations, claiming 
they were harmful to business and the economy.
    Today, by contrast, the question is whether the Department 
of Transportation was strict enough in its regulatory oversight 
of one product, the Chevy Volt electric vehicle by General 
Motors. The title of today's hearing is ``What Did NHTSA Know 
About the Volt Vehicle Fire and When Did They Know It.''
    A very detailed 135-page final report by the National 
Highway Traffic Safety Administration [NHTSA], on its 
investigation into the Volt battery fire incident which was 
made public on Friday provides detailed answers to the question 
this hearing seems to ask. GM has also provided extensive 
documentation of meetings and information it provided NHTSA 
pursuant to its investigation into the causes of the Volt 
battery fire that occurred after crash testing.
    Based on what we know so far, NHTSA's new car assessment 
program appeared to do just what it is intended to do, catch 
potential safety concerns with new cars before they become a 
risk to consumers, and General Motors appeared to do exactly 
what we hoped it would do.
    Even before NHTSA determined whether or not there was a 
real safety issue, it designed improvements to the Volt to make 
its battery better protected from risk of intrusion or fires. 
So far we have seen no evidence to support the implication that 
NHTSA has allowed politics to guide its decisionmaking. And I 
understand my chairman raising that question, because there are 
safety issues here at risk.
    Considering that in the last few months, there have been 
efforts by the majority to defund programs that support the 
development of technologies for electric and alternative fuel 
vehicles and other proposals to take away tax incentives for 
purchasing electric cars, I am concerned that an effect of this 
hearing could be to undermine technology that is critical to 
both protecting the environment and ensuring the success of the 
U.S. auto manufacturing industry, as well as to generally have 
an adverse effect on U.S. economic competitiveness. It would be 
very bad, I think, for our economy to do anything that would 
try to demolish the potential for electric vehicles.
    As we established at the hearing this subcommittee held on 
the proposed fuel economy and greenhouse gas emission 
standards, clean vehicle technologies protect public health by 
cutting air pollutants, smog and climate change pollution. 
Additionally, developing clean vehicle technologies for 
battery, electric and hybrid cars has grown jobs on the 
assembly line and supported the recovery of the domestic 
automotive industry. We don't want to be buying lithium-ion 
batteries from China in 5 years when we can develop the 
infrastructure and skills to make them here in the United 
States. And we want to build cars here in the United States 
that are attractive to consumers in other countries. The 
President talked about that yesterday in his State of the Union 
address. This is where electric and other clean vehicle 
technologies have already established market share.
    Now, let me be clear: I am well-known as a consumer 
advocate. I support early public disclosure of safety risks, 
and I hope and expect that NHTSA consistently works as quickly 
as possible to make intelligent assessments of any safety risks 
and to disclose them to consumers as soon as possible.
    Mr. Chairman, in a meeting that I had yesterday with the 
General Motors CEO and chairman, I told the gentleman of the 
same concerns for early disclosure and transparency, the kind 
that we know that we didn't have with Toyota. So we have a 
obligation to ask these questions, and we also have an 
obligation to rely on facts as they are. And as the majority 
wanted to work with me to craft stricter laws mandating them, I 
might join them.
    I hope this committee's activity on this issue, and I just 
want to be very clear on this, that I wouldn't want this 
committee's activity on this issue to discourage companies like 
GM from continuing to innovate and advance technologies that 
will ensure U.S. competitiveness. And while it appears that we 
have different opinions with respect to whether the Chevy Volt 
is a fiery failure or an innovative success, at least it 
appears we have an agreement that there is a proper role for 
government to play in regulating business and ensuring public 
safety.
    Thank you very much, Mr. Chairman. Let us proceed.
    [The prepared statement of Hon. Dennis J. Kucinich 
follows:]
[GRAPHIC] [TIFF OMITTED] 73448.001

[GRAPHIC] [TIFF OMITTED] 73448.002

    Mr. Jordan. I thank the gentleman for his statement and for 
his great work on the committee.
    We now would yield to the gentleman from Pennsylvania, Mr. 
Kelly.
    Mr. Kelly. Thank you, Mr. Chairman. Mr. Strickland, thank 
you for being here today.
    My concern has nothing to do with General Motors. General 
Motors has a history of building the most wonderful cars in the 
world. And I go back to the days when former President Bush 
made a statement and said if we could just start--if General 
Motors could just start building cars that were relevant, they 
wouldn't have their problems. And at the time, they were the 
leading manufacturer and seller of vehicles on the planet. So 
sometimes there is a disconnect between what we say and what we 
do.
    My concern today is not so much with General Motors, 
because my association with General Motors goes back to 1953 
when my father became a dealer and back to the early 1930's 
when he was a parts picker in a General Motors warehouse and 
had the opportunity to move forward with not only his life, but 
our family's in establishing a dealership and being somewhat 
successful, the combined efforts of a lot of people over those 
years.
    My problem today has to do with your agency, and certainly 
it comes down to a question of trust. And one of the things 
that I see all the time, whether I am in Washington, DC, or 
back home in my district or whether I am in my dealership, is 
can I trust you? Can I trust you to do what you said you were 
going to do? Can I trust you to do the best thing for me and 
have my best interests all the time? And it is about trust. We 
know that you can spend your whole life building trust, and one 
misjudgment, one false step, you can destroy an entire legacy. 
Certainly the passing of Joe Paterno last week we saw a 
gentleman who spent his whole life establishing a legacy and 
lost it in the last 2 months of that life.
    Now, with your agency, the formation of it was to protect 
the public and to work in their best interests. When I look at 
the definition of trust, assured reliance on the character, 
ability, strength or truth of someone or something. One in 
which confidence is placed. Firm reliance on the integrity, the 
ability or the character of a person or thing. It deals with 
custody and care. Something committed into the care of another. 
And that is where the disconnect comes.
    I have no problem with General Motors because General 
Motors acted very quickly once your agency let them know what 
happened. If we were to look at some of the slides, if we 
could, slide 11 and slide 12 if they are available.
    Now, this happened with the car that you folks tested, and 
I want to find out when you look at the timeline, when did you 
let General Motors know this? Because General Motors has not 
had that problem out on the highway with these cars. We only 
had it in the testing. But, again, it comes down to that trust.
    Whose best interests were you acting in? Certainly it 
wasn't the American public. And it was with a manufacturer who 
has a 100-some year history of building the best products in 
the world when it comes to transportation. Why not get on the 
phone and ask them?
    Now, my association with General Motors is very strong. I 
am not a Volt dealer, and I am not a Volt dealer only because 
the Volt does not appeal to people in my marketplace. And I 
have some other things that I will bring forward later on, but 
I have to tell you, I really am disturbed with the fact that 
this happened so early on, and yet the full disclosure of it 
happened by chance from a reporter, not from the Agency that is 
out there to protect the public.
    So we ask then why is this erosion of trust there? Why do 
people no longer trust Congress? Why do they no longer trust 
our form of government? Why do they no longer trust things that 
have taken years to build? And it comes down to incidents that 
cause them to question what it is that happened.
    So I am hoping today, because we talked to you earlier on, 
what did NHTSA know, when did it know it, and when did they let 
General Motors know that? My friends at General Motors have 
always been very responsive. They have always acted very 
quickly in the best interests of the public and those people 
that they serve. I understand that. What I don't get, why so 
long? And my question comes down very frankly, is the 
commitment to the American public or is the commitment to an 
administration whose agenda is we are going to get to green 
technology one way or the other, and I don't care if we have to 
use the Department of Defense to get there, I don't care who we 
have to use to get this alternative energy, and I am all for 
it, by the way. But when the market is ready for the science, 
it won't have to be subsidized. It will go on its own.
    So I am hoping today that we can talk with this and talk 
about it in an open forum so the American public can again have 
the trust that it needs to have in the people that they send to 
represent them, in the agencies that were formed, at least in 
the beginning, to protect those folks that rely on us, and not 
to protect an agenda or to push an agenda forward that I quite 
frankly think that some day we will use electric cars. But 
going back to the beginning, the problem with electric cars was 
always where do you store the energy source and how efficient 
is it and how economical is it and how do you drive that?
    So I am here to hear what you have to say. As we looked at 
what happened in these cases, it didn't happen with any, but 
there was no loss of life or limb, nobody was injured. I just 
wish you would have called GM the same day you found that out, 
because they would have--they would have, I guarantee you, 
within 48 hours had the same fix that they ended up with.
    So thank you very much, Mr. Chairman. I yield back.
    Mr. Jordan. I thank the gentleman for his insightful 
opening remarks.
    Administrator Strickland, the rules of the committee 
require us to swear in our witnesses. If you would please stand 
and raise your right hand.
    [Witness sworn.]
    Mr. Jordan. Let the record reflect that the witness 
answered in the affirmative. The floor is yours, Mr. 
Strickland. You have done this before. You get 5 minutes, give 
or take a few seconds, and we are pretty lenient with that. So 
fire away.

   STATEMENT OF DAVID L. STRICKLAND, ADMINISTRATOR, NATIONAL 
             HIGHWAY TRAFFIC SAFETY ADMINISTRATION

    Mr. Strickland. Thank you, Mr. Chairman. Good morning 
Ranking Member Kucinich and members of the subcommittee. I 
appreciate the opportunity to testify before you today on the 
status of the Volt question.
    Mr. Chairman, I have done this before, but, of course, I 
forget to hit the button.
    I am pleased to share that we have recently closed our 
investigation without finding evidence of an unreasonable risk 
to safety. Before I discuss the events that led to this 
determination, I would like to establish some context.
    One way we reduce traffic deaths and injuries is by setting 
and enforcing standards for motor vehicles. We test many of the 
vehicles on the road to ensure that they comply with these 
standards. However, the fact that a vehicle complies with all 
of the standards does not necessarily indicate the absence of 
an unreasonable risk to safety.
    The Agency's ability to investigate and determine whether 
such a risk exists is key to getting defective vehicles 
recalled and remedied. It is within this context that the 
Agency undertook the preliminary fact-finding task which led to 
the formal investigation of the Volt.
    To be clear, the first priority and the core mission of the 
National Highway Traffic Safety Administration is safety. I 
have the honor of leading more than 600 professionals who 
collectively have one goal in mind--to help the American public 
get to their destination safely every single trip.
    When we learned of the fire at the MJA test facility in 
June, we had no relevant real world data to help us assess the 
safety risk and no clear understanding of how the fire began. 
The Agency took numerous unprecedented steps to ascertain the 
real world risk of Volt owners and passengers and then to 
isolate the root cause of this incident to determine if a 
defect existed that posed unreasonable risk to safety.
    The technical team at NHTSA, working in collaboration with 
the Department of Energy and Defense, used every second over 
the past 6 months to provide the data needed for the Agency 
decision, and they delivered in an innovative and expert 
fashion. If at any time during this period I had any notion 
that an imminent safety risk existed to the American public, I 
would have ensured that the public knew of that risk 
immediately.
    We at NHTSA rely on data to drive our decisions. As I noted 
in my written statement, we undertook several Volt crash tests 
in an attempt to replicate the June incident. In addition, the 
Agency reviewed all the crash reports in the field involving 
Volts. We found no reports of post-crash fires. We looked at a 
variety of data sources, including all relevant early warning 
reporting data and vehicle owner questionnaires. The Agency 
found no indication of a post-fire crash risk in the Volt, nor 
were we able to recreate the June incident at the vehicle 
level.
    Despite the initial negative results and the lack of real 
world events, we decided to continue investigating at the 
component level and shared our initial thoughts with the public 
on this in November. NHTSA engineers analyzed the Volt to 
understand what caused the penetration into the battery 
compartment. We then created new component level testing 
procedures and designed and constructed completely new and 
unique test mechanisms to replicate the intrusion that occurred 
during the May crash test.
    In mid-November, NHTSA tested three Volt Lithium-ion packs 
by damaging the battery compartment and rupturing the coolant 
system. On November 24th, one of the battery packs that was 
tested a week earlier caught fire at the testing facility, 
burning the shed that housed it. The next day, NHTSA opened a 
formal defect investigation of post-crash fire risks in Volts.
    It is important to note that the Agency rarely opens a 
defect investigation without data from real-world incidents. By 
taking this uncommon step, NHTSA sought to ensure the safety of 
the driving public. In response to the defect investigation, GM 
proposed a field fix to mitigate intrusion by adding a 
reinforcement collar around the battery compartment. Our 
technical team reviewed and tested the remedy and confirmed 
that there was no intrusion into the battery compartment, no 
leakage of coolant and no post-impact fire. As a result, we 
have concluded the Agency's investigation and found no 
discernable defect trend.
    NHTSA continues to believe that electric vehicles show 
great promise as a safe and fuel efficient option for American 
drivers. Based on the available data, NHTSA does not believe 
that Volts or other electric vehicles pose a greater risk of 
fire than gasoline-powered vehicles. In fact, all vehicles have 
some risk of fire in the event of a serious crash.
    However, electric vehicles have specific attributes that 
should be made clear to consumers, law enforcement, emergency 
response communities and tow truck operators and storage 
facilities. NHTSA has been working with the Department of 
Energy, with assistance from the National Fire Protection 
Association and others, to develop guidance to help them 
identify vehicles powered by lithium-ion batteries and to take 
the appropriate steps in handling these following a crash.
    We have also been working with the manufacturers to develop 
appropriate post-crash protocols dealing with lithium-ion 
battery powered vehicles.
    Mr. Chairman, thank you so much for this opportunity, and I 
am now happy to answer questions from the committee.
    Mr. Jordan. Thank you, Administrator.
    [The prepared statement of Mr. Strickland follows:]
    [GRAPHIC] [TIFF OMITTED] 73448.003
    
    [GRAPHIC] [TIFF OMITTED] 73448.004
    
    [GRAPHIC] [TIFF OMITTED] 73448.005
    
    [GRAPHIC] [TIFF OMITTED] 73448.006
    
    [GRAPHIC] [TIFF OMITTED] 73448.007
    
    Mr. Jordan. Let me just start with the timeline. Give me 
the date you first learned at NHTSA of the fire concerns of the 
explosion that took place in the test.
    Mr. Strickland. I was notified and the Agency was notified 
on June the 6th of 2011.
    Mr. Jordan. And was this the same time that you, along with 
the EPA, were working on finalizing, maybe not finalizing, but 
negotiating the CAFE standards?
    Mr. Strickland. There is lots of work that goes on between 
the Agency----
    Mr. Jordan. But isn't it true you were working on 
negotiating the CAFE standards----
    Mr. Strickland. We were working on the CAFE standards at 
that time, that is correct.
    Mr. Jordan. And isn't it true that the proposed CAFE 
regulations rely heavily on the sale and deployment of 
vehicles, electric vehicles like the Volt?
    Mr. Strickland. Absolutely that is not true. Actually, by 
statute, NHTSA is forbidden from actually using electric----
    Mr. Jordan. But don't you count on reaching--to get to 54 
miles per gallon, don't you count on the sale of these kind of 
vehicles, this kind of technology in the future helping to 
reach those standards?
    Mr. Strickland. There are several vehicle technology 
pipelines to achieve this, and frankly, most of the 
manufacturers are using internal combustion engines to achieve 
those standards.
    Mr. Jordan. The proposed rules specifically talk about 
electric vehicles. The administration has talked heavily about 
this vehicle. So it is certainly true that these were included 
in getting to that standard.
    Mr. Strickland. For NHTSA's CAFE regulations, it is illegal 
for us to consider electric vehicles as part of our technology 
mix. So therefore, we look at the technology pipelines that are 
available to the manufacturers to comply with our standards and 
therefore, we are very satisfied that the standards can be met, 
as are the manufacturers.
    Mr. Jordan. Certainly the EPA is counting on this.
    Mr. Strickland. There are several technology pipelines that 
can be used to achieve the standards.
    Mr. Jordan. Got it. Got it. We got it. And isn't it true 
that the administration has heavily touted vehicles like the 
Volt as alternative vehicles that could help meet or surpass 
the fuel efficiency targets?
    Mr. Strickland. The Obama administration believes in 
American innovation, and anything to help support American 
manufacturing innovation is something that is a keystone----
    Mr. Jordan. Is it fair to say this administration feels 
pretty strongly about technology like this helping to get to 
these standards, helping with the future of the automobile 
industry?
    Mr. Strickland. The Obama administration feels that 
electric vehicle technology shows great promise.
    Mr. Jordan. Now, when did you testify before Congress on 
the CAFE standards, do you remember?
    Mr. Strickland. I believe I was before you, Mr. Jordan, in 
October of last year.
    Mr. Jordan. October of last year. Okay. So you were aware 
of the safety concerns when you were developing and negotiating 
the CAFE standards?
    Mr. Strickland. There was no safety concern on the part of 
the Agency at the time regarding the Chevrolet Volt because we 
were still in the process of figuring out the root cause and 
whether this posed an unreasonable risk.
    Mr. Jordan. But let me just--when you came in front of 
Congress, when you came in front of this committee, that 
picture Mr. Kelly had shown had taken place, correct?
    Mr. Strickland. That is correct, yes, it had.
    Mr. Jordan. Okay. All right. So you were aware of the 
safety concerns when the President announced on July 29th of 
last summer the negotiated agreement on the CAFE standards?
    Mr. Strickland. There was no conclusion about whether there 
was an unreasonable risk to safety posed by the Chevrolet Volt. 
We were still in an investigation posture.
    Mr. Jordan. I know that. I am just asking, you knew about 
it?
    Mr. Strickland. I knew of the fact that----
    Mr. Jordan. Wait, wait, wait. You knew about that picture--
--
    Mr. Strickland. I knew of the fact that the Chevrolet Volt 
was involved in four vehicles catching fire----
    Mr. Jordan. You knew about that picture, that explosion, 
when you came in front of Congress. You knew about it when the 
President talked about the agreement with the manufacturers on 
the CAFE standards, correct?
    Mr. Strickland. We knew of the incident on June the 6th, 
yes, Mr. Chairman.
    Mr. Jordan. Okay. Obvious question: Why didn't you tell us? 
Well, one other point. If you recall during that hearing, Mr. 
Kelly and Ms. Buerkle asked specific questions about the Chevy 
Volt and about safety concerns and about reaching these 
standards, and you didn't feel it was appropriate to let us 
know that there was an explosion with pictures like that?
    Mr. Strickland. There was no Agency decision as to whether 
there was an unreasonable risk to safety in the Chevrolet Volt. 
My understanding is Mr. Kelly and the vice chairwoman was 
asking me about mass reduction in the CAFE standards. They made 
no question about----
    Mr. Jordan. Just think about it. We are talking about 
safety. We are talking about CAFE standards. You know that 
there has been a safety concern with the battery in the Volt 
leading to an explosion, leading to a fire, and you don't think 
it is appropriate to tell Congress?
    Mr. Strickland. Mr. Chairman----
    Mr. Jordan. Let me ask you this question: But for the 
reporter at Bloomberg, would you have ever told us?
    Mr. Strickland. Of course we would.
    Mr. Jordan. Really?
    Mr. Strickland. Absolutely.
    Mr. Jordan. You waited that long. You testified once before 
Congress and didn't tell us, but once the reporter breaks the 
story, then you let everyone know?
    Mr. Strickland. When the Agency was prepared to make a 
decision as to what the steps were in the protocols and whether 
we were going to make a decision as to the risk of the Volt, we 
would have clearly disclosed it.
    Mr. Chairman, I want to make one point here: I wake up 
every morning in this job with one purpose and one purpose 
only, to make sure that I keep as many people safe and healthy 
as possible. That is my only goal. That is my only goal for my 
600-staff working with me.
    Mr. Jordan. Then why did you wait----
    Mr. Strickland. The bottom line being, it is our 
responsibility to be deliberate and careful.
    Mr. Jordan. Let me ask you this: Why did you wait 6 months 
before you started a formal investigation? Why did you wait 6 
months?
    Mr. Strickland. It took every second of that time for our 
technical team and our engineers to figure out----
    Mr. Jordan. Let me ask you this: Then here is the 
inconsistency I don't get as well. You started the formal 
investigation 6 months after that picture, 6 months after you 
had done some other tests in the interim, and when did you 
officially say that the Chevy Volt is okay and officially 
cleared it from any safety concern? When did that happen?
    Mr. Strickland. We will definitely refer you to the 
timeline, Mr. Chairman. But basically----
    Mr. Jordan. Wasn't it just last week?
    Mr. Strickland. We concluded the investigation last week 
once we had finished all of our work. Actually we finished our 
observation of the last Volt vehicle.
    Mr. Jordan. One other thing. You waited 6 months. November 
25th is when you started the formal investigation, correct?
    Mr. Strickland. We opened a formal investigation when the 
final battery caught on fire and consumed the shed.
    Mr. Jordan. So you opened a formal investigation on 
November 25th?
    Mr. Strickland. That is correct.
    Mr. Jordan. You officially cleared to GM just last week, 
last Friday, if I am not mistaken.
    Mr. Strickland. That is correct.
    Mr. Jordan. Last Friday.
    Mr. Strickland. That is correct.
    Mr. Jordan. Okay. But on December 6th, Secretary LaHood 
said the Chevy Volt is safe, there is no problems. So how does 
that connect? If you didn't start--you waited 6 months after 
you saw pictures like that before you started a formal 
investigation. You didn't finish and clear it until last 
Friday. But between November 25th when you started it and when 
you cleared it last Friday, the Secretary of Transportation 
says the Volt is fine.
    Mr. Strickland. The Chevrolet Volt was safe to drive and 
the Chevrolet Volt had been safe to drive this entire period. 
As I said, Mr. Chairman, our responsibility is to figure out 
whether there was an unreasonable risk to safety and whether 
there was an imminent risk. That did not exist. We did, 
however, we were trying to replicate the post-fire crash----
    Mr. Jordan. But do you see how Members of Congress and 
frankly the American public could see some inconsistencies? You 
don't start a formal investigation until after a 6-month time 
period from when the explosion occurred, and then you don't 
officially clear it until 2 months later, but in between when 
you start it and when you officially clear it, the Secretary of 
Transportation says it is fine?
    Mr. Strickland. Mr. Chairman, in our investigatory 
process----
    Mr. Jordan. And in the interim, before you started the 
formal investigation and know about it, you are developing the 
CAFE standards, but you can't share the information with 
Congress, let alone the American public. So people say what is 
going on.
    Mr. Strickland. Mr. Chairman----
    Mr. Jordan. That is why Mr. Kelly made his opening remarks 
like he did, because he thought what is going on?
    Mr. Strickland. And we are very happy to explain in great 
detail exactly every moment that we worked on this 
investigation. Every investigation there is preliminary work 
that takes place. Every time we open a formal investigation, 
there is preliminary fact-finding that takes place. It was 6 
months of preliminary fact-finding for us to be able to get to 
the point where we felt that we should open a formal 
investigation. We don't simply take these matters. We have over 
40,000 vehicle owner complaints every single year about safety, 
and we investigate the same one----
    Mr. Jordan. I am over time, and I want to get to my friend 
and colleague, Mr. Kucinich. But let me just ask, were you 
concerned--I mean, here is the bottom line, I think. Were you 
concerned about if you told us last summer, or excuse me, told 
us in October, about what was going on, that you would impact 
sales of the Volt and/or impact the negotiations on the CAFE 
standards? That is what we want to know. Were you concerned 
about that, and is that why you weren't square with us? Is that 
why you had to wait for a reporter to break the story?
    Mr. Strickland. I was square with you. Every day I talk to 
victims of traffic crashes, every single day. My first priority 
is to make sure that we reduce injuries and fatalities due to 
traffic crashes. That is the only thing on my mind every single 
day. I don't have any other consideration.
    Mr. Jordan. I just want to be clear. So your decision not 
to share information with Congress when you were in front of 
Congress and you knew the information and we were talking about 
that subject, your decision not to share that information has 
nothing to do with your concern about the sales of the Volt and 
the administration's involvement in promoting the sales of the 
Volt and nothing to do with the negotiation of the CAFE 
standards at the same time?
    Mr. Strickland. Absolutely not. It would be irresponsible 
of me to disclose anything unless we made an agency decision.
    Mr. Jordan. I will yield to the gentleman from Cleveland, 
Mr. Kucinich.
    Mr. Kucinich. Thank you very much, Mr. Chairman.
    Administrator Strickland, I am going to have a series of 
questions, and I would ask that your answers be brief and, of 
course, true.
    Mr. Strickland. Yes, ranking member.
    Mr. Kucinich. Now, the fire occurred on June 6th, and as my 
colleague points out it wasn't until November that NHTSA's 
follow-up testing confirmed that this was not an isolated 
incident. It does seem like a long time.
    What we need to know, Administrator Strickland, is whether 
there was a valid reason for so much time to pass or whether, 
as the majority has concluded, or has at least offered, that 
NHTSA was acting in a politically motivated manner. So the 
first question is, what was NHTSA doing between June and 
November that required such a long internal investigation?
    Mr. Strickland. Thank you for the question, ranking member. 
In June, once the fire was discovered after the fact, sometime 
over the weekend, and we were notified, we had absolutely no 
notion of what the source of the fire was. There was three 
other vehicles around it. It could have been arson, it could 
have been one of the other vehicles, it could have been a 
number of factors.
    So we had to go out, figure out what happened at the scene, 
hire additional contracting expertise, fire investigators and 
folks like that, and then begin the work to actually figure out 
what happened on the scene. That also included crash testing 
other Volts to see if we could actually replicate what happened 
out there----
    Mr. Jordan. Was there a second crash test?
    Mr. Strickland. Absolutely. There were actually several.
    Mr. Jordan. Did that second crash test produce an impact 
into the battery or a fire?
    Mr. Strickland. It did not.
    Mr. Kucinich. And did NHTSA develop a mechanism to damage 
the battery pack directly in order to test for fire risk?
    Mr. Strickland. Yes, sir, that is exactly what we did. We 
were not satisfied with the fact that we could not recreate the 
incident at the whole vehicle level, so we took the 
unprecedented next step to do a component level testing, and we 
had to actually create a whole new system and mechanism in 
order to recreate that.
    Mr. Kucinich. So you created the circumstances under which 
the fire could occur. This wasn't created independently through 
the vehicle, an intact vehicle, without you having to 
essentially rig it to go on fire, is that right?
    Mr. Strickland. That is correct, ranking member.
    Mr. Kucinich. So is it correct that NHTSA intentionally 
damaged the battery compartment and intentionally ruptured the 
coolant system to try to reproduce the fire, is that correct?
    Mr. Strickland. That is correct.
    Mr. Kucinich. Was this fire difficult for NHTSA to 
reproduce?
    Mr. Strickland. Actually, it was.
    Mr. Kucinich. Why?
    Mr. Strickland. Because there are several issues in terms 
of getting through the sub-structure of the vehicle in order to 
get a certain percentage of intrusion into the battery. But not 
always simply intruding into the battery. We had to replicate 
the exact angle, the exact depth, the exact force of the impact 
in order to do that. We wanted to take this component level 
test and make it as close to the real world circumstance that 
we create in the test as possible. That took a tremendous 
amount of engineering.
    Mr. Kucinich. So you went to extensive efforts to try to 
replicate the fire.
    Mr. Strickland. Absolutely.
    Mr. Kucinich. Is that a normal procedure at NHTSA?
    Mr. Strickland. That is absolutely not. The reason why we 
undertook these steps is because we feel that advanced 
technology vehicles, and especially with anomalous 
circumstances as what happened in June, we need to know full 
answers in order to make the decision to protect the American 
public.
    Mr. Kucinich. Did GM ever request that NHTSA keep the 
information from your internal testing and your efforts to 
replicate a fire? Did GM ever ask you not to disclose that or 
make it public?
    Mr. Strickland. Absolutely not.
    Mr. Kucinich. Did anyone in the administration who is your 
superior ever ask you to fail to disclose information relating 
to NHTSA's replication of the fire?
    Mr. Strickland. Absolutely not. It is my expectation, it is 
the Secretary's expectation, it is the executive office of the 
President's expectation, that I do my job to lead this Agency.
    Mr. Kucinich. What would you do if someone did come up to 
you and say, hey, you know what? We have these issues out here 
with the technology, we have issues out here with CAFE 
standards. What would you do if that did happen?
    Mr. Strickland. I have a higher moral obligation to the 
American public. I would properly disclose any risk if it 
proved to be an unreasonable risk to safety, period.
    Mr. Kucinich. Does NHTSA always keep initial internal 
investigations confidential prior to opening a formal safety 
defect investigation?
    Mr. Strickland. Like all agencies, we have pre-decisional 
work to be done.
    Mr. Kucinich. Why?
    Mr. Strickland. Because we handle confidential business 
information, proprietary information, and, frankly, it doesn't 
serve the American public for us to make a non-deliberative, 
uncareful decision about something that poses a safety risk.
    Mr. Kucinich. So what are your statutory obligations with 
respect to alerting the public to safety risks?
    Mr. Strickland. If we find that a defect we believe pose an 
unreasonable risk to safety, we would initiate a recall process 
with the manufacturer. We would ask them to undertake a recall.
    Mr. Kucinich. So hold on a minute. So in your view, before 
an unreasonable risk to safety is identified, NHTSA does not 
have a legal obligation to inform the public of isolated 
hazardous incidents that may occur until it is determined to be 
an unreasonable risk to safety?
    Mr. Strickland. We have no obligation. But clearly, before 
we even make that decision, if we feel that there is an 
imminent risk, we will always inform the public through 
consumer advisories and other methodologies.
    Mr. Kucinich. Let's move from the testing laboratory to the 
real world. It is my understanding from the chairman and CEO of 
GM who I met with yesterday, there are approximately 8,000 of 
these vehicles on the road. Are you familiar with those 
numbers?
    Mr. Strickland. That is correct. I think there is around 
6,000, I think, Volts on the road right now, if I am not 
mistaken, plus or minus.
    Mr. Kucinich. Okay. And have you ever received any reports 
or accounts of any real-world crashes that would seem to 
parallel the safety testing that you did internally?
    Mr. Strickland. None.
    Mr. Kucinich. Has anyone that you know ever been hurt in a 
Chevy Volt vehicle and those reports came back to you 
specifically related to a fire risk?
    Mr. Strickland. It is my understanding there has been no 
injuries or fatalities due to post-fire crashes in Volts.
    Mr. Kucinich. Who on your staff tracks that?
    Mr. Strickland. We have an entire office called the Office 
of Defects Investigation, and that is their responsibility to 
track all vehicle reports, also early warning reporting data as 
well through that particular recall office. There is an entire 
team that does it and they do a fantastic job. They review over 
40,000 complaints every year.
    Mr. Kucinich. So you follow the crashes, you follow the 
accidents, you follow incidents, you follow lawsuits that 
products----
    Mr. Strickland. We have lots of information that comes in 
to help us make defect investigation decisions. All of those 
things that you listed, ranking member, we do look at.
    Mr. Kucinich. Would you drive a Chevy Volt?
    Mr. Strickland. Not only would I drive it, I would drive my 
mother, my wife and my baby sister with me along on the ride.
    Mr. Kucinich. And you would have no concerns about the 
safety of the vehicle?
    Mr. Strickland. None.
    Mr. Kucinich. And will you continue to maintain a study of 
the Volt with respect to your internal circumstances that 
produced the fire?
    Mr. Strickland. We treat all vehicle investigations and all 
vehicles on the road the same way. While we do thorough 
investigations, it is our obligation to always watch the fleet. 
So while this investigation may be closed, we will always be 
looking at not only the Chevrolet Volt, but any other vehicle 
in terms of possible risk, safety risk to the public.
    Mr. Kucinich. One final question, Mr. Chairman. You know, 
you went to great length to describe the circumstances under 
which you created the fire. Could you tell this subcommittee 
how likely is it in the real world that those circumstances 
could actually be replicated as a practical matter?
    Mr. Strickland. Well, I will have to get back to you on the 
record for the specific technical difficulties in recreating 
the crash in the real world, but it is my understanding it is 
very, very, very rare.
    Mr. Kucinich. Have you assessed it mathematically?
    Mr. Strickland. I am not sure if my staff has or has not 
done that.
    Mr. Kucinich. Okay. Mr. Chairman, I want to thank you. I 
think it has been a very useful interchange here. Thank you.
    Mr. Jordan. Again, I will make the quick point though, 
certainly it is very rare. We understand that. But the fact is 
it happened, and it happened at a time when you were 
negotiating CAFE standards. It happened at a time when you were 
coming before Congress and you didn't tell us about it. That is 
the point.
    So let me just ask you this question: When did you first 
let the public know that there might be a concern that there 
was, in fact, an explosion that caused a fire with the battery 
in the Volt? What was the first date NHTSA let the public know 
there might be a concern?
    Mr. Strickland. My understanding is we first informed the 
public in November.
    Mr. Jordan. What date?
    Mr. Strickland. I have to take a look at my timeline 
specifically.
    Mr. Jordan. Was it before or after the news report from 
Bloomberg News came out and talked about this issue?
    Mr. Strickland. I believe it was concurrently. But bottom 
line being our agency actually assisted the reporters in 
getting that story actually factually correct. So we fully 
absolutely worked with those folks to make sure that there was 
proper details and context of the work that was ongoing and 
what happened back in----
    Mr. Jordan. So you first released the information to the 
public after you knew there was going to be a news report about 
it?
    Mr. Strickland. We were in a pre-decisional posture----
    Mr. Jordan. The news report took place on November 11th. 
When did NHTSA officially say something about this concern?
    Mr. Strickland. We responded on the 11th, but we were also 
in a pre-decisional posture. We were close to making those----
    Mr. Jordan. But for the story, when were you going to tell 
us?
    Mr. Strickland. Fairly soon. We were actually in the 
process of doing that.
    Mr. Jordan. Fairly soon?
    Mr. Strickland. Yes.
    Mr. Jordan. Okay. But not until--I mean, the way it worked 
out is not until a news reporter broke the story?
    Mr. Strickland. Mr. Chairman, it is my responsibility--I do 
not disclose to the public anything that we find that we don't 
have proof that it is a unreasonable risk to safety.
    Mr. Jordan. Let me ask you one more question before 
yielding to Ms. Buerkle or Mr. Kelly. Is it customary for the 
Secretary of Transportation to comment on the safety of a 
vehicle while there is a formal investigation going on?
    Mr. Strickland. The Secretary of Transportation was fully 
aware of the work that was going on, and he made the statement 
because it was based on the facts provided to him by this 
Agency.
    Mr. Jordan. But that is not what I asked. I said does he 
normally do that? In other investigations, does the Secretary 
of Transportation, while you have a formal investigation going 
on, does the Secretary of Transportation make a comment about 
the safety of the vehicle? Not any comment, but a thumbs-up 
comment. Is that a normal procedure for the Secretary of 
Transportation?
    Mr. Strickland. The Secretary, my understanding, was asked 
a direct question and he gave a direct answer based on facts.
    Mr. Jordan. Has it happened before? Is this the first----
    Mr. Strickland. Mr. Chairman, you know the Secretary very 
well. When somebody asks the Secretary of Transportation a 
question, he answers. That is what he does.
    Mr. Jordan. Did Mr. LaHood know at the time he was asked 
the question and he gave the answer that there was a formal 
investigation going on?
    Mr. Strickland. He was very aware of all the work that was 
undertaken by the Agency at that time----
    Mr. Jordan. So our Secretary of Transportation knew you 
were investigating this vehicle, was asked the question about 
the safety of the vehicle, comments and says it is fine, and--
--
    Mr. Strickland. The Secretary knew about the----
    Mr. Jordan. And yet that answer was given 6 weeks before 
you formally said it was fine.
    Mr. Strickland. The Secretary knew of all the facts and the 
details as to whether they pose an imminent threat----
    Mr. Jordan. Doesn't it seem at least a little unusual?
    Mr. Strickland. No, it wasn't unusual. The Secretary is 
asked questions like that all the time and gives an answer. He 
did it for Toyota. He did it for Toyota.
    Mr. Jordan. We have a picture of a car, an explosion that 
took place. You wait 6 months to start an investigation. Two 
weeks into the investigation, the Secretary of Transportation 
is asked a question about the safety of the vehicle and he says 
it is great. Even though you haven't concluded the 
investigation, and you think that is normal?
    Mr. Strickland. The Secretary was aware of all of our pre-
fact-finding work and enough to make a conclusion on his own 
supported by the work of the Agency that there was no imminent 
risk to Volt drivers regarding this issue, and the Secretary 
answered directly. He does it all the time.
    Mr. Jordan. Okay.
    Mr. Kucinich. Mr. Chairman, I would suggest that what the 
witness has done with respect to his own experience is to 
communicate the manner in which the testing occurred and that 
in his considered judgment there was no risk to the consumers 
and that the Secretary of Transportation with his understanding 
that was communicated through his own questioning determined 
that what you said was consistent with what he believed to be 
the facts.
    Mr. Strickland. Absolutely.
    Mr. Kucinich. Now, the option we always have, and I would 
suggest it would be very interesting for this subcommittee, 
would be to invite Secretary LaHood, if we have any doubts 
about his position, which I do not, but the chair certainly is 
free to do that.
    Mr. Jordan. Well, I appreciate the ranking member's 
response. I would just say that I know the ranking member's 
commitment to safety. He has an amazing track record.
    Mr. Kucinich. We share that.
    Mr. Jordan. An amazing track record in his years of public 
service. But I would ask you, Mr. Kucinich, don't you think it 
is a little strange that when there is a formal investigation 
going on, that the Secretary of Transportation comments and 
says the vehicle is safe, it is fine, you can drive it.
    Mr. Kucinich. I would say, first of all, you and I share 
the concern about safety.
    Mr. Jordan. Don't you think it is a little strange?
    Mr. Kucinich. You and I share the concern about safety. But 
it may be that the Secretary, and I don't know unless we invite 
him, so we can only speculate, it may be he was concluding 
based on information that he received from NHTSA, and it wasn't 
an off-the-cuff assessment that was just driven by hope, as 
opposed to material fact.
    Mr. Jordan. I yield 5 minutes to the gentleman from 
Pennsylvania.
    Mr. Kelly. Thank you, Mr. Chairman.
    Mr. Strickland, just to be perfectly clear, I do not 
question why you get up in the morning and what is in your 
heart. I get up every morning with the same purpose that you 
do, to serve the American people. Believe me, I was a lot more 
comfortable in my showroom back in Butler, Pennsylvania, than I 
am sitting here today, and I am sure you are a lot more 
comfortable sitting where you sit every day than you are here 
today.
    But the question does become, because, you know, when it 
comes down to it, perception is reality. And we constantly 
fight these perceptions that are out there. Whether they are 
real or not, that really has nothing to do with it, because at 
the end of the day, it is how did the public perceive that. So 
when we come down to these things, I have to tell you, I have 
some slides here, and I have a problem with this. I have been 
involved in a lot of vehicle launches, and slide 14 that we 
have, if we can pull that up.
    Usually most product launches that I have been to, there 
are people that show up. And in this one, if you look in the 
upper left-hand corner, there is Secretary LaHood with EPA 
Administrator Lisa Jackson. In the middle is President Obama 
himself. On the right side is Secretary Chu of Energy. Down in 
the left-hand corner is Labor Secretary Solis and Steny Hoyer. 
Then you go to the other side, there is Labor Secretary Hilda 
Solis. So this is an unusual launch.
    The reason I bring that up is because of the disconnect 
between what your Agency does, because your mission statement 
back in 1970 when the Agency came into existence was to save 
lives, prevent injuries and reduce traffic-related health care 
and other economic costs.
    So I look at this and I say, you know what, the 
stakeholders are all in this launch. This is a halo car, not so 
much for General Motors, but for this administration. This has 
nothing to do with the Chevy Volt or the Nissan Leaf or 
anything else. For me it comes down to taxpayer dollars being 
used to subsidize a product that this administration has 
decided should go forward.
    Believe me, if General Motors thought this was a good 
investment, they would have launched it themselves many, many 
years ago and would have said you know what, we can make money 
with this, because their real commitment is to the shareholders 
and the stakeholders in the company. Right now the government 
has a big hand in that, do they not?
    So, I think we can agree that there is a mutual benefit 
here for not only, not only the administration, but General 
Motors, but on a very, very small scale. Because when you look 
at the number of cars we build every year and we sell every 
year, this is not going to have a dramatic impact on a carbon 
footprint or the sales of General Motors products.
    I go back to I sell a lot of Chevy Cruzes. Do you know how 
many taxpayer dollars are subsidizing that car? None. You know 
why? The market loves it. They love it. It is affordable, it is 
economical, if is safe. It is everything that the American 
public wants. That is why we are the leaders in the industry. 
We have always been able to do that.
    So I come down to these things. Again, I don't question 
what is in your heart. I would never question your integrity. 
But when you look at these timelines, as you go back and forth, 
every once in awhile there may be something, you say, well, 
that was kind of a coincidence. But when it is time after time 
after time after time, and what did you know and when did you 
know it and when did you share it with General Motors and when 
did you share it with the public, and when all these people are 
weighing in, and certainly they show up for the launch, and I 
am sure they stayed for the lunch, but you have to understand 
that the American public is demanding from us today, more than 
anything else, integrity. Say what you mean, mean what you say.
    If you are truly protecting our lives and protecting our 
best interests, if you are looking at all the costs involved, 
both health care and economic, then why so long? Why so long? I 
think that is what the chairman keeps referencing, and I think 
Mr. Kucinich feels the same way, and we all do. We all do.
    So it is hard for me to sit back and look at this and think 
that, my gosh, there was a rush to judgment with Toyota. I have 
friends that sell Toyotas. And I have watched this Congress 
bring members of the former GM board in and excoriate them for 
bad business practices. Now, keep in mind, this is an outfit 
that is running $15 trillion in the red, and they are telling 
General Motors, you guys don't know how to run your business. 
They say, okay, thanks, I think if I am going to hire somebody, 
I probably won't go to you guys.
    But we bring Toyota in, we embarrass them in front of the 
world. We roll this out very early. When did we go to Toyota 
and say, listen, you know what? We have run these tests. Now, 
it took us 6 months to let the public know there is an 
acceleration problem. We didn't do that, did we?
    I mean, there was a real timeline problem here. And when 
you compare the two, I am not talking about General Motors and 
Toyota, I am talking about electric vehicles, whether it is the 
Chevrolet Volt or the Nissan Leaf or anything else that is out 
there, if these cars are so great and so marketable, why could 
do we have to subsidize them so heavily?
    In my State of Pennsylvania, in addition to $7,500 tax 
credit from the Federal Government, Pennsylvania throws another 
$3,500 at this car. That is $11,000. I have sold a lot of cars 
in my lifetime, and the only time you put a SPIF on a car is 
when it won't move on its own.
    Why are we using taxpayer dollars to do this? Certainly if 
the corporate average fuel economy doesn't have anything to do 
with this, I don't know how old you are, but I go back to the 
dates they actually launched it. It was about dependence on 
foreign oil. It had nothing to do with carbon footprint. You 
didn't have to get the DOD involved in this to come up with the 
idea that, you know what, if you build a car that gets better 
gas mileage, the people that actually pay for these cars and 
buy them and have to put fuel in them will probably go to a 
vehicle that, in the long run, is cheaper to run. General 
Motors has done it all our lives. They have done it since day 
one. That is why we have always led the world.
    But I got to tell you, when you look at this, I really am 
concerned, and I mean this sincerely. Your Agency dropped the 
ball on this, sir. And when I look at the dialog back and forth 
at about when this stuff came to light, there is a timeline 
that needed to be addressed. And to go back to your own mission 
statement, stabilize and prevent injuries and reduce traffic-
related, health care and other economic costs, I think there is 
also another investment here, and that is the one that took 
precedence over what your initial mission statement is.
    So I don't know that you can answer any of those questions. 
I don't know it is so much a question as a statement. Because 
we are both members of the same organization. We are trying to 
do the best thing for the people that we represent.
    Mr. Kucinich. Would my friend yield?
    Mr. Kelly. Yes, sir.
    Mr. Kucinich. You may have been out of the room when I made 
this statement, and I just want to make sure that the record is 
clear. I did make the observation, and it seemed like a long 
time, but what I tried to do in the course of the questioning 
is to give Mr. Strickland the opportunity to testify whether 
there was a valid reason for so much time to pass, and I think 
that, in my view, he did effectively make a case why it took so 
long. But I just want to make sure----
    Mr. Kelly. Will the gentleman yield?
    Mr. Kucinich. Sure, of course.
    Mr. Kelly. Were the same standards used when we had the 
acceleration problems with the Toyota?
    Mr. Kucinich. I think it would be good to ask Mr. 
Strickland that question.
    Mr. Strickland. Every investigation is different, every 
investigation has different facts and every investigation has 
different needs in terms of our pre-fact-finding work at the 
technical level.
    Mr. Kelly, I appreciate the question and I appreciate your 
statement, that you are absolutely right. The American people 
send folks like me their faith to make sure that the decisions 
that this Agency makes are the right ones, and our process is 
one that we have to prove an unreasonable risk to safety before 
we can take any formal action against an auto maker for them to 
remedy that particular problem.
    Mr. Jordan. Will the gentleman yield? I just want to be 
clear, Mr. Strickland. Your testimony is each investigation is 
different and unique, is that correct?
    Mr. Strickland. They are. Yes.
    Mr. Jordan. So you are saying that with the Volt, the 
General Motors vehicle, you took a different tact, a different 
approach than you did with the Toyota vehicle?
    Mr. Strickland. Mr. Jordan, I meant that technically. Every 
investigation at the technical level is a different problem. I 
was trying to clarify that.
    Mr. Jordan. Let's be clear. When you testified just a few 
seconds ago, you said each investigation is unique. So it is 
truthful, it is factual that you did a different type of 
approach with the Volt and General Motors than you did with 
Toyota?
    Mr. Strickland. We take different technical approaches 
because they are different problems. We took the same process--
the process that----
    Mr. Jordan. The fact is the taxpayer-subsidized auto 
manufacturer got a different approach than the non-taxpayer 
funded auto manufacturer. That is what you said.
    Mr. Strickland. No. Mr. Jordan, I said at the technical 
level every investigation is different; different technologies, 
different problems, different issues, different levels of how 
much we know about a particular technology pipeline. But we 
treat, and I want to underscore this, we treat every 
manufacturer the same. We hold them accountable for the safety 
every single day----
    Mr. Jordan. There is no way that statement can jive with 
what you just said 2 minutes ago. You said each investigation 
is unique and different, and now you are saying we treat each 
manufacturer the same. Did you wait 6 months before you told 
the public on concerns with other manufacturers? I don't think 
so. So that is the concern the American taxpayer has. You have 
just stated it right here in the last 2 minutes. That is the 
concern the American taxpayer has.
    Mr. Strickland. The American taxpayer, Mr. Jordan, expects 
us to do the right job every single time in finding safety 
defects, and they want to make sure that when we make a 
decision that a reasonable risk to safety exists, that we act 
proactively.
    It does not serve the American people with the number of 
complaints we get every single year--Mr. Jordan, what you have 
basically outlined in this situation would mean that this 
Agency would have to outline 40,000 defect investigations every 
single year to treat everything the same.
    Mr. Jordan. No, I am not outlining anything. You answered 
Mr. Kelly's and Mr. Kucinich's questioning by saying each 
investigation is unique and different, and all I am doing is 
saying so GM got treated different than Toyota did.
    Mr. Strickland. Mr. Jordan, I am not going to get my words 
minced. In terms of process, we treat every manufacturer the 
same. At the technical level, we have to take every 
investigation with the same set of facts, and there is 
different technical issues, and we treat those uniquely, 
because different cars have different problems.
    Mr. Jordan. The gentleman from Cleveland is recognized.
    Mr. Kucinich. I just want to make sure to follow up on what 
the chairman said. Did you pull any punches with GM because 
they are taxpayer-subsidized, or did you go into the science to 
try to see if there was any way you could replicate a fire?
    Mr. Strickland. We pulled no punches. We treat this 
investigation the way we treat every investigation. If we have 
a question----
    Mr. Kucinich. So GM is not going to get a pass because 
there is a subsidy.
    Mr. Strickland. No, absolutely not. The core of what we do 
every day is driven by data, science and engineering.
    Mr. Kucinich. And the data and the science was different 
because you were studying in Toyota something different in 
terms of acceleration, as opposed to with the Volt, you were 
trying to replicate to see whether or not there was a fire that 
could be created under laboratory circumstances.
    Mr. Strickland. That is correct, ranking member.
    Mr. Kucinich. Thanks, Mr. Chairman. I appreciate it.
    Mr. Jordan. I would just point out too, when the 
investigation of Toyota took place, we weren't negotiating the 
CAFE standards. We didn't have administration officials going 
out to Toyota plants taking pictures in the cars, talking about 
the need to do certain things and have certain kinds of vehicle 
sold. We didn't have this huge investment in green technology.
    So, again, I come back to what the Administrator said. That 
is the point here. He is under oath. He is testifying. He said 
that they are different and unique investigations each time, 
and I just asked a simple question, was GM treated different 
than Toyota? And based on what this Administrator said, that, 
in fact, was the case.
    Mr. Kucinich. My friend, he spoke to the relevant 
underlying technical facts of what they had to look at. There 
are different problems. That is how I took it. Is that what you 
meant?
    Mr. Strickland. That is what I meant, ranking member.
    Mr. Jordan. I am sorry, I took Mr. Kelly's time. Mr. Kelly, 
you have a few minutes left and then we will move to the next 
one.
    Mr. Kelly. Mr. Strickland, let me just say something to 
you, okay?
    Mr. Strickland. Absolutely.
    Mr. Kelly. There is a difference between the two of us. You 
were actually appointed and I was elected.
    Mr. Strickland. That is true.
    Mr. Kelly. And Mr. Akerson is going to be here pretty soon. 
You are getting a little bit of a flavor of when I go back home 
and we have town hall meetings what it is like. So as much as 
it may seem like it is an easy thing, that we can actually walk 
and chew gum at the same time, I am going to tell you, people 
ask you questions that are really trying to get to the heart of 
the problem. And I do want to--again, this is not to attack you 
personally. This is not about anybody's personality. This is 
about performance. And this is a standard that we have to be 
held to, both you and I, for the American public.
    So as we go forward in this, I just hope we are 
understanding this. And I am going to show you something, just 
so you know. Because, you know, most cars are 12 volt 
operation. You know this is a 300 volt and also has a 12 volt. 
Now, do you know, I have techs that have been trained in this, 
because the concern was always about safety. Do you know what 
our guys do? Do you know what are some of the essential tools?
    One of the things--I brought some gloves today, okay. The 
first thing you got to put on is this cloth glove when you're 
going to disconnect or unhook the battery, okay. Then the next 
thing you got to do is--this keeps the moisture down, which, 
you know, you don't want to have your hands wet when you're 
working around electricity, especially 300 volts. Then you got 
to put on the rubber glove. Then on top of that, you've got to 
put on a leather glove. So this is a three-prong process. And 
this is all designed to protect the technicians that are 
working on this car. And I don't know that you know this, I 
don't know if you've seen this procedure before. There was one 
other essential tool that was debated early on. Do you know 
what it was.
    Mr. Strickland. No, sir.
    Mr. Kelly. It was an insulated shepherd's hook. Now, that's 
the same hook that the Lord refers to a lot about the Good 
Shepherd pulling one of his flock back out of a problem it was 
in. So if you're a technician and you're working on a Volt and 
you happen to hit a live wire, 300 volts which does have a 
little bit of effect on your ability to sustain life, you grab 
the insulated shepherd's hook and you pull your comrade off the 
car.
    So I want to make sure that we understand where we're going 
with this. And the responsibility that you have to the American 
public and the responsibility that we all have to the American 
public is the same thing: to protect them from health care 
costs or economic costs related from an injury.
    So I'm going to take off the gloves. And I don't dislike 
you. I admire you for what you're doing. I want you to travel 
with me sometime back in the district and meet some of the 
folks that I represent.
    Mr. Strickland. I would love to.
    Mr. Kelly. As we go forward, there is no doubt that we're 
going to continue to look at this, but as Mr. Jordan said, 
perception is reality. We have created now a question of trust, 
not only here in this body, but also with your agency, because 
now the American people got to start to wonder. So why did they 
do it, what happened, when did it happen, when did they let 
General Motors know about it, and was it in the best interest 
of the public or was it in the best interest of the 
administration?
    Mr. Kucinich. Will my friend yield for 10 seconds?
    Mr. Kelly. I will, Mr. Kucinich.
    Mr. Kucinich. I would say that we're fortunate to have you 
on this committee because your expertise in automotive is 
wonderful to have here. But I would also submit that the 
question isn't whether GM was dealing with the kind of gloves 
you're talking about, but whether or not NHTSA treated GM with 
kid gloves.
    Mr. Kelly. And I will tell you this. It's a matter, Mr. 
Kucinich, of protecting people from harm, and in this case I 
think we're protecting the administration more than we are the 
American public.
    Mr. Kucinich. You and I agree on the safety issues.
    Mr. Kelly. And we both like each other. I know that's a 
hard thing for most people to understand. And we don't fight 
around here all the time.
    Mr. Jordan. The ranking member of the full committee has 
been extremely patient. I want to give him as much time as the 
gentleman. Do you want 10 minutes?
    Mr. Cummings. I probably won't need that much, but thank 
you very much.
    Mr. Jordan. The gentleman from Maryland is recognized.
    Mr. Cummings. Thank you very much. First of all, Mr. 
Strickland, Administrator Strickland, thank you very much for 
your testimony this morning. When I listened to your testimony 
and I listened to yesterday's comments from the GM head, Mr. 
Akerson, and I combine what I've heard this morning with what 
he had to say, I have some simple words for you, and it is that 
I believe you.
    Mr. Strickland. Thank you.
    Mr. Cummings. A lot of times when we look at circumstances 
from this vantage point we make judgment calls, but we're not 
in your shoes. And as a trial lawyer for many years I often saw 
facts that appeared to say one thing but when the story was 
told and the circumstances were explained they said a whole 
other thing.
    I think part of the problem here this morning is that as 
I've listened very carefully, the timeline in getting out 
information at certain points seems a bit shaky. And as I 
listened to your explanation in response to one of Mr. 
Kucinich's questions, I am convinced that apparently you did 
things in a way that it should have been done. But the problem 
is this. Somebody over there just said, trust is so important. 
And there is a book that I recommend to all my proteges that's 
called The Speed of Trust. And it talks about how important it 
is that when in any relationship, that you trust a person, 
because it allows the relationship to move faster; in other 
words, get things done. But there are two kinds of trust. 
There's trust with regard to integrity and then there's trust 
with regard to competence. In other words, I would not want my 
barber cutting my hair.
    So I think, you know--and I don't want us to get confused 
here. You've been sworn here today. But what has happened here, 
and whether you know it or not, is your integrity has been 
questioned, your honesty has been questioned. And then the 
question becomes, what is that all about?
    Now, I don't believe this hearing is about safety. I wish I 
did. I think that GM has come up with a brilliant idea to come 
up with a great product. It's had some problems, but there is 
this allegation out there that some kind of way President Obama 
or somebody from the Obama administration came to NHTSA and 
said, don't put out certain information because we want GM to 
be successful; or, they have conflated the CAFE standards with 
all of this--which is ridiculous.
    So I'm going to ask you a few questions that I want you to 
clear up some things. Because see what happens here is that, 
Mr. Strickland, our lives are short and damage can be done to 
somebody sitting in that chair and they don't even know it's 
been done. Or your wife will be looking at you on television 
tonight and saying, you know, they really made you look bad. 
Well, I just want you to know, calm down, you don't look bad.
    Mr. Strickland. Thank you, sir.
    Mr. Cummings. But I've got to ask you this. You know 
there's been some discussion with regard to--you know, when you 
were here before, and there was discussion that you had at the 
October fuel economy standards hearing regarding safety focused 
on--and that focused on the impact of weight and mass 
reduction; do you remember that?
    Mr. Strickland. Yes, sir.
    Mr. Cummings. And I want to ask you this. Do electric 
vehicle technologies have impact on weight and mass reduction 
of vehicles?
    Mr. Strickland. No.
    Mr. Cummings. So the discussion on safety at the October 
hearing was not directly relevant to the battery fires that 
occurred 3 weeks after a series of extreme tests; is that 
right?
    Mr. Strickland. That is correct, sir.
    Mr. Cummings. So the majority is attempting to conflate two 
separate issues. Mr. Strickland, how does the safety of 
electric vehicles compare to conventional fuel-based vehicles?
    Mr. Strickland. There is no differential in risk between 
those two systems. They have different attributes that have to 
be taken into account, but there's no different risk between 
electric vehicles and gasoline-powered vehicles.
    Mr. Cummings. Does the fire of a Chevy Volt, weeks 
following extreme crash testing in the NHTSA lab, justify 
Chairman Issa's characterization of Chevy's Volt as a, ``fiery 
failure?''
    Mr. Strickland. No, absolutely not. It was an anomalous 
result that we were not expecting and GM wasn't expecting 
either, and we took a lot of time to figure out the root cause, 
which we did. And we feel that the remedy that GM has proposed 
would deal with those issues going forward.
    Mr. Cummings. And so we've got a situation. I want you to 
understand how this stuff works, okay, because I've been around 
here awhile, 16 years. There are some employees that are going 
to watch this at GM tonight, if they're not watching it right 
now, and they care about this vehicle. They are people who, if 
it were not for the good leadership of Mr. Ackerman and the 
help that they got from the government, would be out of a job. 
They take pride in this vehicle. And so we're having this 
discussion today, and I don't want the word going out--see, you 
can have collateral damage in these hearings, and the 
collateral damage could be that folk go out and say, I'm not 
going to go buy a Volt. They catch a little bit of information, 
right? Not going to buy a Volt. So therefore a car that is safe 
now--and it is safe; is that right?
    Mr. Strickland. Absolutely.
    Mr. Cummings. You all just released a report, what, Friday?
    Mr. Strickland. We closed our investigation last week, 
that's correct.
    Mr. Cummings. So I want to be clear that they can buy a 
Volt, and as you said--you didn't say these words, but you 
would be comfortable with your wife, your children, la-de-da-de 
and everybody riding in it; is that right?
    Mr. Strickland. Absolutely.
    Mr. Cummings. Because see, you know, we run around here and 
we complain about jobs and here we--and we complain about what 
we're failing to do. But here we have used some of the best 
minds to create one of the best vehicles, one that's selling 
off the charts. We've got GM now leading the world, and this 
hearing in and of itself could cause damage to all of that.
    So I don't want to--believe me, I want to make sure that 
the vehicle is safe; that's why I want you to be clear that 
safety should be all of our number one concern, and I know it's 
yours. But I also want the word to go out--I don't want this 
collateral damage, because that collateral damage is going to 
cost somebody, a supplier in my district perhaps, or a supplier 
in Mr. Jordan's district, to perhaps have to close their doors. 
But more importantly, it sends a message to hardworking 
Americans who are producing a great product and a product that 
will allow GM to perhaps continue to lead the world with regard 
to sales of vehicles.
    And so I just--you know, I want you to just go back just 1 
second, I've got 1 minute left, and give us--and I don't want--
see, I don't want these--see, what they're going to do, I've 
been around here a long time, they're going to keep hammering 
at you. I'm just telling you that's what they're going to do. I 
can go to lunch and come back and they're going to still be 
beating up on you, because they want to make a point. And do 
you know what, sometimes the point ain't even there, it's not 
there. They're swatting, we got a point, I want to make a 
point.
    And I want you to use your next 23 seconds that's left to 
assure us that although it may have appeared--the timeline may 
have appeared not to be all that we would want it to be, that 
it was. Can you explain that to us again?
    Mr. Strickland. Mr. Cummings, thank you so much for the 
opportunity. Our work was independent. We have a statutory 
obligation to protect the American public from a reasonable 
risk of safety caused by vehicle defects. Our obligation is to 
make sure the American public gets home safely every time.
    It took us 6 months in order to figure out not only whether 
the Volt was involved, what specifically caused the fire and 
whether there was an imminent risk, and then if there was a 
defect that needed to be addressed. It took 6 months of a lot 
of engineers not only in my agency but in other agencies across 
government to do that. At no time was there any notion of any 
other part of government coming to me or coming to any of my 
staff saying that we should do nothing other than our job, and 
that's what we did.
    Mr. Cummings. Thank you very much. Thank you, Mr. Chairman.
    Mr. Jordan. Yes, thank you. I would just point out we're 
not trying to make a point; the point is the point, the 
timeline is the timeline, the facts are the facts, and that's 
exactly what this hearing is about. The hearing is not the 
problem, the problem is the problem. That's why we have the 
hearing.
    Mr. Cummings. The problem is the problem?
    Mr. Jordan. Yeah. We're here because a vehicle exploded in 
a timeline and this gentleman did not give information to the 
committee when he could have back in October.
    Mr. Cummings. That is right but--will the gentleman yield 
for just a second?
    Mr. Jordan. All I'm saying is the facts are the facts.
    Mr. Cummings. The facts are the facts.
    Mr. Jordan. You're saying we're swatting at things, we're 
appearing, we're trying, we keep them here until--we've got our 
last questioner right now. That's not what this hearing is 
about and that's not the points we're making.
    Mr. Cummings. Come on, Mr. Chairman, come on now. I've been 
around a long time. This hearing is not about safety, this 
hearing is about an attack.
    Mr. Jordan. No, it's not.
    Mr. Cummings. Okay.
    Mr. Jordan. We're getting to the facts.
    Mr. Cummings. All right. Fine.
    Mr. Jordan. The gentlelady from New York is recognized, the 
vice chair.
    Ms. Buerkle. Thank you, Mr. Chairman. I, unlike the ranking 
member, Mr. Cummings, I am new here in Washington. And Mr. 
Strickland, thank you very much for being here.
    Mr. Strickland. Thank you. Nice seeing you again.
    Ms. Buerkle. Nice to see you, too. We've had other 
conversations about other issues, but today I would like to 
talk about--and the ranking member brought it up--trust based 
on integrity or based on competence. I'm concerned with your 
role and NHTSA's role with regards to competence and making 
sure that the technicians and the folks who work there know 
exactly what the issues are and what to do. And in this 
instance it really is the issue of the lithium-ion battery. I 
mean, that really isn't how one handles that and how one treats 
that. That really is kind of the essence of what we're talking 
about here for safety.
    You know, I think we should all take this opportunity. We 
learn from mistakes, we learn from shortcomings, we look at 
situations that we didn't like the way they worked out and we 
figure out what we did wrong and we move on. And so I think 
that's what a hearing like this is about: How do we prevent 
this from happening again?
    I guess my question to you is, were the automobile, the 
safety engineers, aware of the dangers posed by the damaged 
lithium-ion battery?
    Mr. Strickland. At what point, Madam Chairwoman?
    Ms. Buerkle. After the crash occurred on the 12th, May 
12th. Then the car sat after the crash.
    Mr. Strickland. Okay, I understand. Thank you, vice 
chairman, for clarifying that. The car was put through a normal 
New Car Assessment Program side impact test. When we finish 
with those particular tests and get the results, the car, the 
hull, is then sold for salvage. That car was stored in the 
normal process in the yard, thinking that there were going to 
be no issues, and it wasn't observed at all until those 3 weeks 
later, on June 6th, when the staff at MGA came back and noticed 
the burnt hulls that were discovered.
    So no one had an expectation that the particular fire 
incident that happened on June 6th would be precipitated from 
the May 12th test.
    Ms. Buerkle. And I guess that gets to the essence of my 
question. These batteries, when it was traumatized, when you 
had the crash test on May 12th, it then began to leak and there 
was evidence that there was a leaking orange fluid. And my 
concern is that the safety administrators didn't have the 
wherewithal or the knowledge that this leaking battery would 
cause a problem, given that battery and the energy behind it 
and the dangers.
    And so my question to you is: Why was that car stored with 
other cars, why wasn't that battery drained, why wasn't that 
handled--why wasn't it handled as if someone understood the 
dangers with regards to this lithium-ion battery?
    Mr. Strickland. Our engineers and the test facility 
engineers actually know of the dangers and the issues regarding 
lithium-ion in terms of how much energy they store. In all of 
the crash tests up until that particular point, the ones that 
are taken by the National Highway Traffic Safety 
Administration, and my understanding of those undertaken by GM, 
there has never been an issue where post crash there was 
actually a fire issue. So therefore there was no protocol 
either by National Highway Traffic Safety Administration or GM 
externally at that particular time to deal with batteries post 
crash. Because this is a new technology and we are always 
learning, this is something frankly that we addressed and we 
looked at and we took the proper processes once we recognized 
that this could be an issue.
    Ms. Buerkle. And that, sir, with all due respect, is our 
concern, or my concern. The fact that if it was a regular 
engine you would have drained--after an accident, you would 
have drained the gasoline out of the tank to avoid any--and in 
this instance, the fact that the fire did occur because the 
fluid wasn't drained, there were no protocols, therefore there 
were no protocols given to GM, and that's a problem. Because in 
this instance without the protocols, without giving the 
protocols to GM, how do you inform them of what happened? I 
mean that's the purpose of--you do. And obviously this could 
happen--it could happen on the road and you would have a 
similar situation. So that's the concern. There were no 
protocols, GM wasn't informed, and it appears--and we talk 
about appearance being reality--that the administrators, the 
safety administrators, didn't have the knowledge of this 
battery and the danger that this leaking fluid out of it could 
cause and did cause this fire. I believe I'm out of time, and I 
yield back.
    Mr. Strickland. Actually, I would like to respond to that.
    Mr. Jordan. Okay. Quickly. That would be great.
    Mr. Strickland. And I'll be very brief. Am I satisfied for 
the fact of what we as an agency or what the manufacturers did 
at the time in terms of post crash protocols for lithium-ion 
batteries? No. That's the reason why we addressed it. But there 
is also no reason to think that there was an issue with the 
protocols because of the processes that we went through and are 
learning over the years about these systems. Battery intrusion 
we've always known is a situation that we want to avoid. In 
this particular situation, in an anomalous way the battery was 
intruded upon, and then we discovered a list of events where we 
know we needed to address lithium-ion batteries post crash, 
which we did, with the National Fire Protection Association and 
the Department of Energy.
    So, Madam Chairwoman--Vice Chairwoman, we absolutely want 
to make sure that we protect those people not in post crash, 
but the second responders, the storage facilities, all those 
other things. But let me be perfectly clear. We have been 
working on lithium-ion high-voltage battery systems for several 
years. We began our work on safety protocols in a research plan 
in 2010 specifically, well before any of these issues came to 
the fore, because we recognize that there's always going to be 
learning going forward in how we deal with these safety 
systems. It's a priority and we take our job very seriously in 
that way.
    Mr. Jordan. Thank you, Administrator. We want to get to the 
chairman of the full committee. And we promise this will be 
your last 5 minutes because we do want to get to Mr. Akerson 
before we have votes. So the chairman of the committee, Mr. 
Issa, is recognized.
    Mr. Issa. Thank you, Mr. Chairman. And perhaps going last 
gives me one advantage. Administrator Strickland, this is about 
safety, this is about government's role. This committee under 
the Republicans and Democratic leaders has taken on auto 
companies and the Transportation Safety Administration overall. 
We did it under Toyota and we did it in a very, very bipartisan 
fashion. So understand, you're here today because my first 
hybrid electric car came with me to Washington. The factory 
that blew up and left the world without enough lithium-ion 
batteries occurred while I was still a CEO in the electronics 
industry. How dare you tell us you're still developing 
protocols while the President is sitting in an electric car? 
And it's not General Motors' first electric car, it's not the 
first electric car that has been put on the road.
    So one of the reasons you're here today is you're behind 
the power curve. This vehicle's picture was not released until 
today. I've got to tell you, if you were against electric cars, 
if you were not trying to promote them perhaps ahead of some of 
the expertise you have for safety, this picture would have been 
splashed 20 minutes after it burned. The fact is your 
administration is not up to speed to maintain safety in an 
electric age.
    Now, I grew up, like many people on both sides of the dais, 
seeing exposes of various trucks and cars--and I won't name the 
brands--exploding on television. It's not new that you can have 
catastrophic events in the case of an accident. That's one of 
the reasons you have the test protocol.
    I'm deeply concerned today about one major part of this, 
the most important part. You didn't know what you were doing, 
an anomaly happened, it happened when there were less than 
400,000 Volts out there, didn't it? Didn't it?
    Mr. Strickland. I don't know the stated charge 
particularly.
    Mr. Issa. Well, I do. By July there were less than 4,000, 
and we'll have the CEO here in a moment. Today there are twice 
as many out there. You didn't even inform and deal with the 
problem, either to the public or to General Motors or to this 
committee, when people were here in front of this committee 
during the intervening period until Bloomberg media outed you.
    Now, how do you answer the question of transparency, 
accountability and trust today? You said you would put your 
mother, your grandmother, all these people in a car you don't 
own. You put the President of the United States in the car, you 
put the Secretary of Transportation in the car. How dare you 
not have both the public and this committee know what you knew 
in a timely fashion? How do you answer that accusation, which 
is the safety charge that you guys screwed up on by keeping a 
secret?
    Mr. Strickland. Mr. Chairman, I will point to the timeline, 
which is very detailed as to the work that was undertaken by 
the agency along with the Department of Energy and the 
Department of Defense.
    Mr. Issa. The car blew up 3 weeks after it was hit, 
unexplained, right? Part of the timeline.
    Mr. Strickland. That's correct.
    Mr. Issa. Three minutes after that 3-week event, why was it 
that executives at General Motors weren't flying in well 
informed? Why is it that one of the hallmark projects of this 
administration that higher-ups, including Secretary LaHood, 
including if necessary a briefing sent to someone that would 
try to get it to the President, why wasn't that as important?
    Mr. Strickland. GM was notified as soon as we were 
notified, on June 6th. And it is our responsibility to figure 
out what is wrong with the vehicle, even the vehicle that was 
at cause. At the point that we saw, Mr. Chairman, we didn't 
even know whether the Volt was at fault. So we had to build 
from the ground up which vehicle was responsible; or even if it 
was a vehicle, it could have been an arsonist as far as we 
knew.
    Then once we isolated it to the Volt, it took every moment 
up until we were able to close the investigation to do the 
engineering work for us to come to the decision on whether or 
not the Volt posed an unreasonable risk to safety. And until we 
have that agency decision made, it is irresponsible, frankly 
illegal, for us to go forward and tell the American public that 
there is something wrong with a car when we don't know what it 
is or not. It took us that time to figure it out. So there was 
never any notion of us not being transparent, Mr. Chairman. We 
were doing our jobs.
    Mr. Issa. Well, I hear you. I don't believe you. The fact 
is today, coming to this hearing, why weren't these pictures 
released? Oh, I'm sorry, that's an embarrassment. But what part 
of transparency gives you an obligation to be forward-looking?
    It's great that everyone is still promoting the Volt. I go 
to every CES show and every other show and I see all kinds of 
special cup holder battery chargers in the Volt. I see all 
kinds of nice things. The fact is the American public wasn't 
interested in buying the car in large quantity, even with 
incentives. Now we have a safety question, and it's not a 
safety question about the Volt, it's about trust of your 
agency. Can we trust you in this and every other area to not be 
selective and basically overly cautious?
    This was a new automobile, something catastrophic happened, 
and you're telling me it took months to get to where you had a 
confidence level that, ``you had a problem.'' It sounds to me 
like you had to make sure that you could absolutely explain 
this as an anomaly to save the whole reputation of the Volt and 
electric cars. And you started off saying, we've got to prove 
that this is safe and we're not going to stop until we fully 
proved it and documented it. You certainly had concerns.
    And I'm going to share one thing in closing. Look, I was an 
automobile parts manufacturer, I had a recall, I've been down 
the road of anomaly along with Circuit City, one of my major 
customers at the time, and you can always say that because 
they're no longer around to complain one way or the other.
    The fact is, we were under the scrutiny from a national 
level from the moment the agency was informed, under the 
scrutiny. Ultimately we did a recall on something where there 
was no problem in the vehicle, but we explained in depth how 
somebody could make a mistake in installation on a limited 
number of cars. I'm very familiar with how fast you can act, 
even if you don't know all the facts but you know something bad 
happened.
    Now, with the chairman's indulgence, please, you've got the 
last word.
    Mr. Strickland. Mr. Chairman, the National Highway Traffic 
Safety Administration is not in the reputation business, we're 
in the safety business. I am not concerned about the reputation 
of any manufacturer if they put a product out that that poses 
unreasonable risk to safety. We work independently to prove 
that every single day.
    Now, I appreciate your comparison with your experience with 
Circuit City and your company, but we have a statutory 
obligation under the Safety Act that we have to fulfill before 
we move forward in pressing a manufacturer for a mandatory 
recall. It would be improper for us to do anything different 
than that process. So it is a very careful and deliberate 
process. I wish it could be instantaneous. It takes technical 
work, engineering work, and a lot of science to be able to 
figure that out to a point of certainty.
    In those 6 months it took every second for my engineers at 
NHTSA to be able to come to that conclusion and give us the 
information for an agency decision and a recommendation of the 
Secretary of Transportation.
    So we are as transparent an agency as we find in 
government. We have a data base which is filled with tens of 
thousands of complaints every single year of vehicle defects. 
We work very hard. We've reduced fatalities in America by 25 
percent since 2006. We take every single crash that injures or 
kills someone with the highest level of sincerity and severity. 
And, Mr. Chairman, I appreciate the opportunity to explain 
that.
    Mr. Issa. Thank you. Mr. Chairman, working with your 
subcommittee, I would ask that we continue the process of 
verifying what has just been said; essentially how often it 
takes 6 months when there's a known catastrophic event. Thank 
you, Mr. Chairman.
    Mr. Jordan. Thank you. Administrator, we want to thank you 
for your time. And we do want to get to our next witness as 
quickly as we can. If the staff would quickly get ready for 
Panel II, we want to get Mr. Akerson started because we are 
going to have votes sometime in the next half an hour and we 
want the testimony in time for questioning of our second 
witness. Thank you, Administrator.
    Mr. Strickland. Thank you, Chairman.
    Mr. Jordan. We're pleased to have Mr. Dan Akerson,the CEO 
of General Motors with us. And Mr. Akerson, you know the 
routine here. We've got to do the swearing in real quick, then 
you get your 5 minutes and we'll go from there.
    So if you'll raise your right hand.
    [Witness sworn.]
    Mr. Jordan. Let the record show the witness answered in the 
affirmative. And again, Mr. Akerson, I know you were here for 
the first panel, so you get 5 minutes. And we're pretty lenient 
with that time, as you saw. So go right ahead and then we'll 
get to questioning and hopefully get this done before we have 
to go to vote.

   STATEMENT OF DANIEL F. AKERSON, CHAIRMAN AND CEO, GENERAL 
                             MOTORS

    Mr. Akerson. Good morning. Thank you----
    Mr. Jordan. I did the same thing. Try the mic there if you 
would there. And just pull it close. You should have the red 
light there. There you go.
    Mr. Akerson. Good morning. Thank you, Chairman Jordan, 
Ranking Members Cummings and Kucinich. I welcome the 
opportunity to testify today and stand behind a car that all of 
us at General Motors are proud of.
    Please allow me to start with some Volt history. GM 
unveiled the Volt concept at the January 2007 Detroit Auto 
Show. In June 2008. The old GM's board of directors approved 
the Volt project for production well before the bankruptcy and 
the infusion of government funds.
    The battery story goes back much farther in the early 
1990's with GM's extensive work on the EV1. Drawing on that 
experience, we engineered the Volt to be a winner on the road 
and in customer's hearts. Today I'm proud to say that the Volt 
is performing exactly as we engineered it. In its first year 
the Volt garnered the triple crown of industry awards; Motor 
Trend Car of the Year, Automobile Magazine's Automobile of the 
Year, and the North American Car of the Year.
    Volt is among the safest cars on the road, earning five 
stars for occupant safety and a top safety pick with the 
Insurance Institute for Highway Safety. And 93 percent of Volt 
owners report the highest customer satisfaction with their car, 
more than any other vehicle, and the highest ever recorded in 
the industry.
    Beyond the accolades, the Volt's importance to GM and our 
country's long-term prospects is far-reaching. We engineered 
the Volt to be the only EV that you can drive across town or 
across the country without fear of being stranded when the 
battery is drained. You can go 35 miles, in some cases much 
more, on a single charge, which for 80 percent of American 
drivers is their total driving range. After that, a small gas 
engine extends your range to 375 miles, roughly, before you 
have to recharge or refill.
    But the Volt--but if Volt--if the Volt message boards are 
any indications, there's some real one-upmanship going on out 
there. Customers were reporting going months and thousands of 
miles without stopping once at a gas pump. No other EV can do 
this or generate that much passion with its drivers.
    We engineered the Volt to give drivers a choice to use 
energy produced in the United States rather than from oil from 
places that may not always put America's best interests first. 
We engineered the Volt to show the world what great vehicles we 
make at General Motors.
    Unfortunately, there's one thing we did not engineer. 
Although we loaded the Volt with state-of-the-art safety 
features, we did not engineer the Volt to be a political 
punching bag. And sadly, that is what it's become. For all the 
loose talk about fires, we are here today because tests by 
regulators resulted in a battery fire under lab conditions that 
no driver would experience in the real world. In fact, Volt 
customers have driven over 25 million miles without a similar--
single similar incident.
    In one test the fire occurred 7 days after a simulated 
crash. In another it took 3 weeks after the test; not 3 
minutes, not 3 hours, not 3 days, 3 weeks. Based on those test 
results, did we think there was an imminent safety risk? No. Or 
as one customer put it, if they couldn't cut him out of a 
vehicle in 2 or 3 weeks, he had a bigger problem to worry 
about.
    However, given those test results, GM had a choice in how 
it would react. It was an easy call. We put our customers 
first. We moved fast and with great transparency to engineer a 
solution. We contacted every Volt owner and offered them a 
loaner car until the issue was settled. And if that wasn't 
enough, we offered to buy the car back. We assembled a team of 
engineers who worked nonstop to develop a modest enhancement to 
the battery system to address the issue. We'll begin adding 
that enhancement on the production line and in customer cars in 
a few weeks. And in doing so, we took a five-star-rated vehicle 
and made it even safer.
    Nonetheless, these events have cast an undeserved damaging 
light on a promising new technology that we're exporting around 
the world right from Detroit. As the Wall Street Journal wrote 
in its Volt review, we should suspend our rancor and savor a 
little American pride. A bunch of midwestern engineers in bad 
hair cuts and cheap wrist watches just out-engineered every 
other car company on the planet.
    The Volt is safe, it's a marvelous machine, it represents 
so much about what is right about General Motors and, frankly, 
about American ingenuity in manufacturing. I look forward to 
taking your questions. Thank you.
    [The prepared statement of Mr. Akerson follows:]
    [GRAPHIC] [TIFF OMITTED] 73448.008
    
    [GRAPHIC] [TIFF OMITTED] 73448.009
    
    [GRAPHIC] [TIFF OMITTED] 73448.010
    
    [GRAPHIC] [TIFF OMITTED] 73448.011
    
    [GRAPHIC] [TIFF OMITTED] 73448.012
    
    Mr. Jordan. Thank you, Mr. Akerson. We appreciate you being 
with us today, and we appreciate the fact that in your 
testimony you talked about you contacted every Volt owner, and 
frankly the response you took when this was brought to the 
public's attention.
    In your opinion, Mr. Akerson, should NHTSA have known to 
drain the battery--when they conducted this test and they 
subjected it to a crash and they took it out in this lot and 
they left it sit there, shouldn't they have known that they 
needed to drain the battery?
    Mr. Akerson. I can only speak for General Motors and the 
protocols within the industry. The protocol on whether it's a 
combustion engine or an electric assist, as the Volt is, is to 
disconnect the battery, the 12-volt battery in a combustion 
engine car and drain the gas. Our protocol at the time, with 
the understanding in the background that this is a new and 
evolving technology, was the battery, the 12-volt battery, is 
disconnected and the large 16-kilowatt hour battery was 
disconnected, not depowered. Lesson learned, and that's part of 
our protocols going forward.
    Mr. Jordan. But let me be clear. So is it fairly common 
knowledge that when there's a crash, you drain the battery and 
drain the gas tank? I mean, that's just common sense.
    Mr. Akerson. No. You disconnect the 12-volt battery, 
disconnect it from the circuitry, and you drain the gas tank.
    Mr. Jordan. Okay. But should we have expected NHTSA to know 
that they should have drained the battery, or is that an unfair 
expectation?
    Mr. Akerson. Again, I can't speak for the administration.
    Mr. Jordan. Any testing that you had done before, any 
testing other--that you know of other manufacturers with 
similar-type electric vehicles, do they know they're supposed 
to--I mean, did they drain their batteries in those tests? I 
mean, was there--it seems to me this is something NHTSA should 
have known to do, rather than just park it on a lot with a 
bunch of other cars.
    Mr. Akerson. Let me speak to what General Motors knew. We 
had 285,000 hours of testing on this battery, which is the 
equivalent of 25 car lives, if you will. And everything we 
found was this was a safe----
    Mr. Jordan. Did any of that testing involve draining the 
battery after it had been subjected to a crash or after the 
battery had been punctured?
    Mr. Akerson. No.
    Mr. Jordan. When did NHTSA ask you for the protocols--when 
did you give them the protocols that did include draining the 
battery?
    Mr. Akerson. In the case in question where the car had a 
fire 3 weeks after the crash, it was left, as you saw, on the 
side of the road. And I don't know that the battery was even 
disconnected. I believe it was. I'm talking about the 12-volt 
battery. I believe it was. And I believe the larger battery was 
disconnected from the circuitry but not drained.
    Mr. Jordan. Okay. And when did you plan on, if at all, 
informing the owners of the Volt and the public about potential 
concerns? Did you plan on doing that or is that something you 
were waiting--you worked in conjunction with NHTSA? What was 
your plans at General Motors for informing the public?
    Mr. Akerson. Well, after listening to the Administrator's 
testimony, as the summer progressed we had to disassemble the 
battery itself and look for the root cause. And as he said, 
there were concerns about arson or one or the other three or 
four cars involved. It wasn't all that clear to anyone exactly 
what happened. It happened over a weekend. There was no 
observation, there was no witness to what happened.
    In September of last year we tested, and NHTSA tested 
again, and we could not replicate a fire. We did the same exact 
test--we, General Motors. They did exactly the same test. We 
could not replicate, and so there were further tests. And as he 
said, the battery itself was extracted from the vehicle. It was 
pierced with a steel rod, which is highly unlikely in the real 
world. And then it was rotated, simulating a rollover, not in a 
second that you would expect on the road, but by an hour; and 
it was drenched, if you will, in fluid, coolant. It took 7 days 
for a fire to occur. I would like to underscore, there was no 
explosion, a fire.
    And that--at that point after that extreme, what I would 
call not real-world situation, 7 days, that's when they said 
they wanted to open a formal investigation. We notified our 
customers immediately after that.
    Mr. Jordan. Okay. Thank you. I yield now to the gentlemen 
from Ohio, Mr. Kucinich.
    Mr. Kucinich. Thank you. Thank you, Mr. Akerson, for being 
here. Is the Volt safe?
    Mr. Akerson. It is very safe.
    Mr. Kucinich. Have you ever had any communication with 
anybody in the Obama administration to ask them to provide some 
kind of consideration to GM with respect to the testing that 
you became aware of not to disclose it or to defer disclosure 
of it?
    Mr. Akerson. Absolutely not.
    Mr. Kucinich. And you're sure in terms of your line staff 
that it didn't happen?
    Mr. Akerson. I'm quite sure. I can't testify to that 100 
percent.
    Mr. Kucinich. But as a policy you, GM, did not try to get 
the Obama administration to fail to disclose any tests that 
were made in a laboratory setting?
    Mr. Akerson. No, no one.
    Mr. Kucinich. And you're not aware of any accident or any 
injury that's occurred to anyone driving a Volt?
    Mr. Akerson. Absolutely none.
    Mr. Kucinich. They're safe in the vehicle; is that right?
    Mr. Akerson. I own one. Yes.
    Mr. Kucinich. And you drive it, and your family members 
drive it as well?
    Mr. Akerson. I just bought it.
    Mr. Kucinich. Okay. Well, let me ask you something. If 
there was a material defect in a car that was out in 
circulation right now, would that affect, let's say, your 
insurance that GM would be buying from, you know, your 
insurance carrier? Wouldn't they increase the cost of your 
insurance if you were likely to have, let's say, a claim for a 
product liability? Wouldn't that be a problem for you?
    Mr. Akerson. Yes.
    Mr. Kucinich. Has that occurred? Has your insurance company 
contacted you and said, wait a minute, Mr. Akerson, there's 
questions here and it's going to cost you more to--it's going 
to cost you more to--it's going to cost GM more to have 
insurance, has that happened?
    Mr. Akerson. I insured this car and it was ridiculously 
low, but that's because it's a five-star-rated car by the 
Insurance Institute.
    Mr. Kucinich. So the very people who are charged with 
determining risk, as a question of the market now, they have 
not increased the cost of insurance; to the contrary, they've 
given it a high rating?
    Mr. Akerson. I presume that's the----
    Mr. Kucinich. Is that the way it works?
    Mr. Akerson. That's the way I would run it if I were 
running an insurance company.
    Mr. Kucinich. Can you discuss what effect designing and 
producing the Volt has had on GM? Has it helped GM become more 
competitive?
    Mr. Akerson. As I said, this is an evolving area of 
automotive engineering and technology. It's a halo car in the 
sense that we get a cache, if you will, of being innovative, 
and successful companies all innovate.
    Just to set an expectation, a little bit of background, we 
sold more Volts in the first year than Toyota sold Priuses in 
the first year that they rolled out the Prius. So new 
technologies do take awhile to take hold, to get traction. And 
I think that the engineering around this has been viewed as--it 
was described as a Moon shot from a technological point of 
view. And indeed I think it was, and I think that has benefited 
other cars. We're rolling out----
    Mr. Kucinich. So it's your experience, then, that the 
manufacturing of the Volt will put America essentially on the 
map with respect to these electric vehicles; is that right?
    Mr. Akerson. These electric vehicles, the derivatives are 
already going into many of our cars. And, for example, the 
Buick LaCrosse would chart in the high 20's on the road 
mileage; with eAssist, as we call it, it jumps to 37 to 38 
miles per gallon. So we're getting derivative positive impacts 
of exploring these technologies and deploying them in the real 
world, yes.
    Mr. Kucinich. And so the manufacturing of the Volt then 
moves America toward clean and efficient energy technologies 
that's not only used in a Volt, but is being used in other cars 
to help them become more fuel efficient; is that correct?
    Mr. Akerson. Yes, sir.
    Mr. Kucinich. And that in turn, I might add, has a lot to 
do with saving jobs in this economy. How many jobs has GM added 
to the auto manufacturing sector to help develop the 
technologies that build the parts for the Volt?
    Mr. Akerson. Well, one entire plant in Hamtramck, just 
outside Detroit, is dedicated to the Volt production. They put 
out about 400 every couple of days. And there are a couple 
thousand employees there. I would also say, since we've emerged 
from bankruptcy, we've invested over $5 billion in 
infrastructure in this country and hired about just short of 
16,000 additional employees.
    Mr. Kucinich. Five billion dollars for the purposes of?
    Mr. Akerson. All of our capital programs here in the United 
States.
    Mr. Kucinich. Final question. So it's your intention as the 
CEO of General Motors to have the Volt lead the way toward, 
let's say, electric and hybrid electric vehicles revitalizing 
our auto manufacturing sector by providing products that 
consumers would find attractive because it's going to save them 
money; is that correct?
    Mr. Akerson. Yes, sir. And I would also add that we're 
developing great combustion engine cars as well that are energy 
efficient.
    Mr. Kucinich. I understand that from my own district. Thank 
you very much, sir. Thank you.
    Mr. Jordan. Thank you.
    I'm pleased to have with us a member of the full committee, 
Mr. Walberg from the great State of Michigan. With unanimous 
consent from the committee, we would like for Tim to be able to 
join us.
    Before going quickly to Mr. Kelly I just want to be clear 
on a question Mr. Kucinich asked. So with the exception of 
NHTSA, General Motors had no--you, Mr. Akerson, had no 
conversation with folks at the White House concerning this 
incident?
    Mr. Akerson. Correct.
    Mr. Jordan. No conversations with people--you or anyone in 
General Motors had no conversation with people at TARP--in 
particular Mr. Massad, who sort of handles the now defunct Auto 
Task Force--you had no conversations with Tim Massad at 
Treasury regarding this issue?
    Mr. Akerson. I had a conversation with Mr. Massad earlier 
this week on another general matter, and I observed to him that 
I was going to testify today. Other than that, no conversation.
    Mr. Jordan. But has anyone at General Motors, do you know 
of, talked to Mr. Massad or someone in the administration--have 
you talked to Mr. LaHood, you or anyone at General Motors 
talked to Mr. LaHood about this issue?
    Mr. Akerson. No, sir.
    Mr. Jordan. I now yield to the chairman of the full 
committee, Mr. Issa.
    Mr. Issa. Thank you, Mr. Chairman. Welcome. I'll be brief. 
The question here is not about whether General Motors is making 
good cars, whether or not General Motors is coming back. I 
think those are undeniable, and I'm very happy for that, and I 
think the President took great pride in that last night. The 
question here is: Is this, in your history recognition and as 
far as you know, a typical response to a typical catastrophic 
event? Is this less aggressive or more aggressive by NHTSA in 
their response to a mysterious fire on a brand-new automobile 
when there were only a few thousand in the field?
    Mr. Akerson. As we speak--excuse me. Mr. Chairman--there 
are about 8,000.
    Mr. Issa. Right. And I was correct. I think there were 
about 4,000 when this occurred. You've sold about--you may be 
making 400 a day, but you're selling far less than that; 4,000 
or less in June-July, 8,000 or so now.
    The question is, when this occurred the director has said, 
the Administrator has said, this is what we do, it takes 6 
months to do it, this is just the way it is.
    In your experience, would you consider this to be an 
aggressive response, an average response, or a little slower 
than average when it comes to when it lights up your phone and 
your people come running in and you have emergency meetings and 
the shit hits the fans and the alligators are around you and 
it's all you can focus on, even though you're bored and 
everybody else had something else in mind for you that day? As 
you compare it to other events that have happened to all great 
automobile companies, was this more aggressive, typical or, 
quite frankly, a little less speedy?
    Mr. Akerson. Thank you for your colorful description of my 
daily routine.
    Mr. Issa. Been there, done that on a smaller scale.
    Mr. Akerson. I understand. I would describe it as 
proportional. We tried to replicate--first we had to find what 
we suspected to be the root cause. Then we had to try to 
replicate it in the field. We crashed and tried to simulate the 
same outcome we had in the May-June timeframe. We could not do 
that. Subsequently when they drew the battery out of the car 
and then impaled it with a steel rod and then spun it, it took 
awhile to get it, and then it took 7 days after it was impaled 
in order to replicate a similar situation.
    So I would say, given all the complexities associated with 
this new technology and the fact that we couldn't replicate it 
in the field again, it would be proportional.
    Mr. Issa. Okay. I'll take ``proportional'' as an 
interesting answer that I'm not sure what it means, but I 
appreciate your candor.
    Last question. Lithium-ions, a relatively new technology 
for you, not new technology to the world. It's a 20-year-old 
use in all kinds of things, including all of our cell phones. 
The aviation industry has regulated volume of it, all kinds of 
other things. Do you think you're behind the power curve and 
need to play catch-up on lithium-ion? You describe not knowing 
how to replicate that. Is that one of the problems with going 
forward on a mass basis with large volumes of a new, basically 
other-than-sealed lead acid battery that you've historically 
used?
    Mr. Akerson. Well, arguably we're teamed with probably one 
of the leaders, not the leader in battery technology in the 
world, and that's LG Chem out of Korea. And they built a plant 
in Holland, Michigan, to supply not only ourselves, but other 
competitors in the same market. I would say that we're a leader 
in this. We understand the battery technology well. We have a 
battery lab specifically to study the technology and the 
evolution and the improvement that we expect over years.
    Mr. Issa. I wasn't trying to ask what you were doing, 
because I know you're doing that. But in fairness, it's a 
little bit of catch-up. I mean, the American automobile 
companies, including your previous leased automobile, you're 
playing catch-up on all electric cars, and even hybrid, and I 
applaud you for doing it. But from a safety standpoint, don't 
you think that if you had to do it over again, you would have 
been--would have worked with NHTSA to be a little more 
aggressive in public confidence by doing what you needed to do 
sooner; in other words, 6 months of continuing to sell a car 
that could, and turns out would, potentially explode and needed 
dramatically different safety procedures? Didn't we find as a 
country that you shouldn't have kept selling this relatively 
new car the way you were?
    Mr. Akerson. The lithium-ion battery, as you know, is well 
used throughout the industry. The one protocol change that I 
think we did learn as an industry, and it is now incorporated--
in fact, General Motors is leading the Society of Automotive 
Engineers in how to handle not only with first and second 
responders, but that we need to have certain protocols that are 
consistent and uniform, not only for General Motors battery 
electric cars, but around the globe. And that is that we are 
going to depower the--not disengage--but depower the battery 
after crash. And I think that alone is a huge step forward.
    The additional work we did to support and shed the load 
around the battery is a huge step forward. I don't think it's 
monumental, but it's a good step forward that when we did crash 
five cars after this minor enhancement, perfect. So I think 
there's lessons learned; but at the same time, I don't think 
there was ever an imminent threat to any customer when you have 
anywhere from 7 to 21 days to remove yourself from the car if 
there is an accident. After 25 million miles on the road for 
this car, there's never been an incident anywhere close to 
this. There have been no injuries. And so we felt, as we found 
in an extreme simulated lab fire that took 7 days, that this 
car was safe.
    But as I said in my opening comments, we weren't satisfied 
with this. We wanted to address the issue with our customers. 
We offered them loaner cars, we bought the cars back, we made 
the adjustments, and they're being implemented over the next 
month.
    Mr. Issa. So to characterize it, just to make sure your 
testimony is understood, it's fair to say that what you've 
learned is the entire Nation of repair facilities, salvage 
yards and other people involved in the automotive industry are 
going to have to learn and adapt a lot of new procedures that 
are continuing to evolve if we're going to ensure safety of 
handling of these new components, both because of high voltage 
and potential fire and explosion? That's what you've learned 
from this, is that those of us who aren't part--we get out of 
the car, but when we go to the salvage yard they need to know 
it, the tow truck company needs to know it, all the other 
people need to know it? That is in fact the risk that you found 
after 6 months?
    Mr. Akerson. Before we launched this car, Mr. Chairman, we 
conducted nationwide safety tours across the country to make 
sure that the public safety was paramount. That's a core value 
of General Motors. We talked to the National Fire Protection 
Agency, the International Association of Fire Fighters, the 
International Association of Fire Chiefs, the Association of 
Public-Safety Communications Officials, fire chiefs, police 
chiefs, 911 call centers, to make sure that we had this 
understood. We've now trained over 15,000 people across the 
Nation on these safety protocols. We're going to have to go 
back and make sure that it's well understood, the new safety 
protocols. So I think every organization and individual should 
evolve and learn, and we've learned some lessons here that I 
think will benefit the entire industry, not just General 
Motors.
    Mr. Issa. Thank you, Mr. Chairman. Thank you Mr. CEO. Thank 
you, Mr. Chairman.
    Mr. Jordan. We're pleased to be joined by Representatives 
Connolly and Maloney. We have 4 minutes left in this vote, but 
only 60-some folks have voted. So if Mr. Cummings----
    Mr. Cummings. I'm going to be very quick.
    Mr. Jordan. The gentleman from Maryland.
    Mr. Cummings. First of all, Mr. Akerson, as a member of the 
Board of Visitors of the Naval Academy, I just want to 
congratulate you on being named Graduate of the Year. Thank 
you. That's wonderful.
    I want to make sure, you heard what I said, I don't want 
collateral damage from this hearing. And so you as the head of 
GM, you're assuring the public, and listen up, press, that the 
Volt is a safe vehicle; is that right?
    Mr. Akerson. Yes, sir. And actually I view this as a 
positive. It's our chance to get this before the American 
people; you represent the American people, to get our story 
before you. We've taken out ads in the paper today, coincident 
with this, that the investigation has been complete. I do think 
there has been collateral damage. We're going to have to work 
hard to get it back, and today is a good start.
    Mr. Cummings. Well, I want to thank you for your 
leadership. And I want to take this moment to thank all the 
employees of GM for producing such a great product. And with 
that, I yield back.
    Mr. Akerson. Thank you.
    Mr. Jordan. I thank the gentleman. We are going to take 
about a 20-minute break. We'll be back for Mr. Kelly and then 
some of our full committee folks who may want to ask questions, 
but we'll keep that as quick as we can.
    I want to congratulate you, too. And frankly I appreciate 
the attitude you just expressed in your last answer. So the 
committee stands in recess for 20 minutes, more or less.
    [Recess.]
    Mr. Jordan. The committee will come to order.
    I will recognize the gentleman from Pennsylvania, Mr. 
Kelly, for 5 minutes.
    I apologize for the delay, Mr. Akerson, but I forgot we 
were going to have a very appropriate ceremony for 
Congresswoman Giffords.
    Mr. Kelly is recognized.
    Mr. Kelly. Mr. Akerson, thanks for being here.
    You and I have never met. We have never done anything 
socially. We have never done anything--well, from a business 
standpoint, far away, I buy a lot of cars from you.
    But we are linked in a different way. Dan Daniel and I grew 
up in Butler, Pennsylvania. Mr. Daniel and yourself, we have a 
great relationship. And I know the reason you are here is not 
because of any monetary gain that General Motors could have 
possibly offered you. Because, really, your decision to go with 
GM was made with your heart and not with your head. Because you 
could have stayed in the private sector, and it would have been 
a lot more rewarding, and you wouldn't be, in fact, here today 
going through this.
    The question goes back to--it has nothing to do with 
General Motors, but it does have to do with the apparent 
partnership that the government has with GM. And the reason I 
bring that up--and I know you say, no, that is not true; and I 
know Mr. Strickland said, no, that is not true. But you can't 
get away from certain things that are already on the table.
    If we go to the slides--I think it is on page 3. There is 
two slides. In one of the slides, this is some advice coming 
from the administration back to GM, and it is kind of a 
marketing thing. And one of the slides--and this is a 2009--May 
18, 2009, e-mail--shows Treasury officials directing GM in how 
it would structure press releases, asking that references to 
the government ownership of GM be removed and taking it out of 
the lead.
    Then we go to another slide showing an e-mail from May 
2009, again, and it talks about a member of the automotive task 
force telling General Motors to coordinate with the UAW, United 
Auto Workers, about the pending termination of the pension 
plans for which GM is responsible. And it says, at a minimum, 
this could get messy and the UAW should probably be brought 
into the loop.
    Now, having served on a lot of dealer councils and being 
part of ad groups where we tried to get the message out about 
how great our cars were and how good our deals were and how you 
could trust your General Motors dealer and the General Motors 
products, walk me through some of that stuff. Because it is--
again, perception is reality.
    This hearing today is not about the Chevy Volt. This 
hearing is about NHTSA. What did they know? When did they know 
it? When did they let you know it?
    I believe we have always had a great partnership, and I 
told you early on my dad started in 1953 after being a parts 
picker in the warehouse.
    My relationship with General Motors has never been cloudy. 
It always has been clear and been transparent, and I know at 
which side of the table I sit. I am not a manufacturer or a 
distributor. I actually sell these cars.
    But when you look at these things and you say, well, my 
gosh, if it really isn't government run, if the government 
really is at arms length and away from this, this sharing of 
this information of how are we going to market these different 
messages, how does that happen if it is not that way? And how 
does NHTSA sit there and say, no, no, no, no, we did it the 
same way we always do it, and the fact of the matter is they 
didn't do it the same way they always do it.
    Again, halo products, I understand halo. It has nothing to 
do with angels, but it does have to do with what we are trying 
to do when we are putting the spotlight on our cars. We can 
compete with anybody in the world with any product at any 
level. But, again, our success has been driven by producing 
cars in mass quantities that people want to buy in mass 
quantities. So it truly is market driven, and by that I mean 
just be able to be driven off the lot by an awful lot of folks.
    But when I look at those two e-mails and I am trying to 
think, okay, so if they are really not involved and they really 
don't have an influence, why are these e-mails going back and 
forth and why are they advising General Motors on how they 
should message these different things? If you could just walk 
me through it really easy.
    And, again, I admire you for what you are doing. I know 
don't have to be here. You could do a lot of different things. 
And Danny speaks highly of you all the time. So if you could 
just kind of help me to understand that and help the American 
people to understand that, I would appreciate it.
    Mr. Akerson. Thank you for your question.
    I want to make something perfectly clear. I joined the 
board in July 2009, so these e-mails preceded any knowledge or 
specific knowledge I would have of the situation.
    I would allow that when I was in the deal merger and 
acquisition business at the Carlyle Group, there is a lot of 
conversation back and forth when you are about to put money 
into an investment. So possibly that is the context of that. 
But that is just pure conjecture on my behalf. I don't know.
    I will say this, and I mean this as sincerely as I can. 
When I was first queried on the possibility of joining the 
board, I was clear that I did not want to be associated with a 
venture, a company as great as General Motors is and as 
important as I think it is to this country's manufacturing and 
industrial base, if there was going to be government 
involvement. Was the company going to be allowed to function as 
a business?
    And in my tenure, both on the board for the first year from 
2009 to September 2010 and in the subsequent year and a half, I 
will testify in front of the Good Lord that this administration 
has never had a presence in the board room or any input on the 
operations of the business.
    You asked a more specific question about NHTSA and its 
involvement with us: What do they know? When did they know it? 
I think the Administrator and I have commented on that. But if 
there is any question in anyone's mind that they gave us a free 
ride, if the last 2 months of negative publicity and the fact 
that I am sitting here explaining this, thanks, but I will go 
it alone in the future.
    Mr. Kelly. Thank you.
    I yield back, Mr. Chairman.
    Mr. Jordan. I thank the gentleman.
    I believe in order the gentleman from Virginia is 
recognized and then Mrs. Maloney.
    Mr. Connolly. Thank you, Mr. Chairman.
    Mr. Akerson, welcome.
    Mr. Akerson. Thank you.
    Mr. Connolly. The chairman of the full committee indicated 
the NHTSA study was done roughly sort of halfway through the 
number of sales that currently have occurred. That is to say, I 
think you said there were about 8,000 Volts on the road. This 
happened around sale 4,000. Is that about right?
    Mr. Akerson. I am sure it was quite a few less than that, 
because we sold I think 1,500 plus in January alone. So I think 
it has been gaining momentum. I would have said closer to 2,000 
or 3,000, but I don't have the specific number before me.
    Mr. Connolly. Of the 8,000 families or consumers who drive 
Volts, how many have blown up or had fires?
    Mr. Akerson. None.
    Mr. Connolly. I am sorry?
    Mr. Akerson. None.
    Mr. Connolly. None. Well, so the only example of any safety 
concern with respect to that occurred in a laboratory run by 
NHTSA?
    Mr. Akerson. No. To be precise, the first one occurred in 
the field in a contractor--I guess a contractor of NHTSA's--it 
was a test facility in Wisconsin. We hit it with a severe side 
impact, and it sat alongside the road with three other 
vehicles. Three weeks later, a fire occurred; and it took us 
awhile not only to understand which vehicle started the fire 
and under what conditions, because it happened over a weekend, 
then we had to find the root cause. We had to dissemble the 
battery. You saw pictures of it. It was not all that easy to 
ascertain precisely what happened.
    Subsequently, tests were conducted to try to simulate that 
again, because you could have a bad test. We ran tests. We 
crashed it again. We could not replicate a fire with the same 
conditions. We didn't depower. We didn't do anything. NHTSA 
could not do it.
    Mr. Connolly. Well, I was listening to the chairman of the 
full committee, Mr. Issa, questioning you. And in the process 
of asking a question, he asserted some facts; and I want to 
make sure that you either do or do not concur with his 
assertions that, in light of this test, even though it hasn't 
been able to be replicated, we need to give special 
instructions for people so that it doesn't explode and blow up. 
You know, if you are taken by tow truck or put in a storage 
facility or a junkyard or even, for that matter, in a garage, 
because there is reason to be concerned. Would you comment on 
that?
    Mr. Akerson. I think the kernel of the issue is what do we 
do in a post-crash, multi-day, multi-week environment if we did 
not depower the battery. I think the lesson learned is, after a 
week to 3 weeks--and we could not simulate in the real world 
the condition that we experienced after 3 weeks. We had to pull 
the battery out, pierce it, and essentially--this will be a 
slight exaggeration--drench the battery in coolant, and then a 
week later it occurred. And it wasn't an explosion. That has 
been a little bit of hyperbole, I think. There was a fire. It 
smoldered for a while. It would spark. It takes awhile, and 
then it would burn.
    When that occurred, even in a simulated laboratory, 
extreme, non-real-world environment, NHTSA initiated a formal 
investigation, and we went to general quarters.
    Mr. Connolly. And you, as the CEO of GM, are so concerned 
about this you went out and bought one yourself?
    Mr. Akerson. I bought one of the cars that was returned, 
yes, sir.
    Mr. Connolly. Thank you.
    Last night, the President alluded to the lithium battery 
research and development, advanced lithium battery. If I 
recall, at the time we adopted the Recovery Act here in 
Congress, before we made the investment in advanced lithium 
battery research, the U.S. manufacturing share worldwide was 
something like 4 or 5 percent, and the projection is like by 
next year it is going to be 40 percent, is that correct? Is 
that your understanding?
    Mr. Akerson. I am not familiar with those numbers.
    Mr. Connolly. But in a brief period of time, manufacturing 
here in the United States of advanced lithium batteries has 
significantly expanded in the last 2 or 3 years, is that not 
correct?
    Mr. Akerson. That is correct.
    Mr. Connolly. Briefly, GM before and after the bailout, 
could you just refresh our memory in terms of your world market 
share?
    Mr. Akerson. Our world market share today at the end of 
2011 stands at about a right around 12 percent. Roughly one out 
of every eight vehicles in the world is manufactured by GM or 
one of its affiliates. Through--at the end of 2011, it was the 
first time since 1977 that we have gained market share 2 
consecutive years in a row.
    Mr. Connolly. And you have returned to number one in the 
world?
    Mr. Akerson. Yes, sir.
    Mr. Connolly. I thank the chair.
    Mr. Jordan. I thank the gentleman.
    Real quick, before yielding to Mrs. Maloney, just so I am 
clear, the protocols prior to this investigation and this 
incident were--commonly understood, commonsense, common 
knowledge--were to drain the gas tank and to disconnect the 
smaller battery--12 volt battery that the car has.
    Mr. Akerson. In a ``conventional car,'' yes.
    Mr. Jordan. So in an electric vehicle the protocols were 
the same: Disconnect the 12 volt, drain the gas tank, but do 
nothing with the larger lithium-ion battery?
    Mr. Akerson. It would automatically disconnect from the 
circuitry.
    Mr. Jordan. So the protocols for the electric vehicle were 
exactly the same as for a non-electric vehicle: Disconnect both 
batteries, disconnect the battery operation, drain the gas 
tank. That was common knowledge.
    Mr. Akerson. Yes. But I want to make sure I am perfectly 
clear. There is a difference in depower.
    Mr. Jordan. Okay, that was my next question. So the 
protocols today are disconnect the battery, which entails both 
batteries, drain the gas tank, and, in your words, depower the 
larger battery, which means drain the coolant?
    Mr. Akerson. No.
    Mr. Jordan. Tell me in layman's terms.
    Mr. Akerson. Discharge the battery.
    Mr. Jordan. And what does that mean?
    Mr. Akerson. Think of connecting a giant light bulb to that 
battery and just run it down.
    Mr. Jordan. Okay. Got it.
    Mrs. Maloney.
    Mr. Akerson. I am sorry for the inarticulation, but there's 
not much----
    Mrs. Maloney. Thank you very much and welcome to the 
committee.
    I would find it very difficult to imagine an America that 
did not make its own cars, so I am pleased that the President 
was able to report in his State of the Union the progress that 
the car industry has achieved in America. I would like to quote 
one line and put his whole statement in the record with 
unanimous consent. He said, ``Today, General Motors is back on 
top as the world's number one auto maker.''
    A report I read last week said that there are over 700,000 
jobs created by the auto industry now in America, and I would 
like to put that report in the record.
    Mr. Jordan. Without objection.
    Mrs. Maloney. Okay. I think that it is clear that this 
innovative car that GM has made has been caught up in the 
middle of politics, and some Members appear more interested in 
making wild allegations for political purposes than in 
recognizing a promising technological breakthrough. And I would 
like to ask you--and give me a yes or no answer--is it true 
that the Volt was first shown as a General Motors electric 
vehicle concept at an international auto show in January 2007, 
more than 2 years before the swearing in of President Obama and 
the company's filing for bankruptcy?
    Mr. Akerson. Yes. It was shown at the Detroit auto show.
    Mrs. Maloney. Okay. I am just curious. How did you get 
here? Did you fly? Did you take a train? Did you drive? How did 
you get to this hearing?
    Mr. Akerson. I drove a Volt.
    Mrs. Maloney. You drove a Volt. Okay. And can you tell us 
how the Volt is selling and what is the customer feedback?
    Mr. Akerson. Well, it is rated--from a customer 
satisfaction point of view, it is rated at the highest rate any 
car has ever gotten. Ninety-three percent of the people highly 
approve of the car that own it. It is the highest recording 
ever.
    Mrs. Maloney. And will the technology developed for the 
Volt be used in other vehicles?
    Mr. Akerson. There are derivatives that come out of our 
research and development and the practical application of the 
Volt and other electric cars that will benefit other vehicles 
in our fleet, yes.
    Mrs. Maloney. How many miles does the typical Volt owner 
drive without having to fill up with gasoline? How long can you 
go?
    Mr. Akerson. Well, on one charge we say 35. Sometimes it is 
more. It is actually, quite interestingly, temperature 
dependent. If it is really cold or it is really hot, you do see 
some diminution. But let's say in the typical day that is 
temperate, about 35-40 miles.
    Now, what we do have is 80 percent of the American public 
drives 40 miles or less per day. This car was designed for that 
mass market. I drove a test vehicle before we launched for 3 
months. I put roughly 2,500 miles on it. I used two gallons of 
gas, because our driving patterns were such that we didn't 
drive 50 and 60 miles at one run.
    Mrs. Maloney. So how often do you have to fill up with the 
Volt if you can get such mileage off it?
    Mr. Akerson. Well, again, it depends on your usage 
patterns. If you are driving 35-40 miles a day, you may not 
have to fill up for months. We have instances and testimonies 
on some of the blogs that people drive it 800 or 900 miles. 
But, again, if you are driving 100 miles a day, you are going 
to see a transition.
    It is really important to understand this car is always 
driven by an electric motor. The gas engine is relatively 
small. There is no mechanical drag on the combustion engine. 
All it does is charge the battery.
    Mrs. Maloney. And what are your future plans for the Volt?
    Mr. Akerson. Well, I think this has been a good exercise 
for us, because it has gotten everything out on the table, and 
I think we have a fair hearing. We are going to start exporting 
it with the enhancements that we are implementing now, not only 
to Europe but to Asia and China in particular.
    Mrs. Maloney. If everything you say, Mr. Akerson, is true 
about the Volt, that you can get such mileage, that you can 
drive for months if you are not driving that long, that you 
cannot fill up but once every 2 months, and you get such great 
mileage and safety and so forth, why aren't other manufacturers 
of cars copying the Volt? Why aren't they building their own 
version of the Volt?
    Mr. Akerson. There has been interest by some of our 
competitors to license the technology.
    Mrs. Maloney. And do you own the technology? Is it American 
owned, this technology?
    Mr. Akerson. Yes, it is.
    Mrs. Maloney. Is it patented?
    Mr. Akerson. Yes.
    Mrs. Maloney. And so you can hold on to it?
    Mr. Akerson. Yes, For 17 years.
    Mrs. Maloney. Well, we might be able to export something 
then.
    Mr. Akerson. We are exporting it.
    Mrs. Maloney. This fire scenario that we have been talking 
about, it seems to me that you have responded to it in a very 
unlike GM way--no offense--but not like a big corporation, but 
responding very fast to provide a solution. Has this fire 
happened in any other real-life accident or other accident?
    Mr. Akerson. We have 25 million miles driven on the cars 
that are in the public domain. There has been no documented 
case of any fire of any nature on the Volt.
    Mrs. Maloney. And I have heard that some of the consumer 
groups and watchdog groups have given you ratings. Could you 
give us what those ratings are and the safety watch groups? Can 
you elaborate on these standards, I guess, or qualifications?
    Mr. Akerson. We are rated five star not only by NHTSA but 
by the International Institute of Highway Safety for occupant 
safety. So both five stars in the arena we want. The Consumer 
Reports says it has had the highest rating of customer 
satisfaction, the highest they have ever seen.
    When we closed the--when we were first notified of a formal 
investigation, we immediately offered loaner cars or the 
opportunity to sell the car back to the company, and at the 
same time we embarked upon a very aggressive and active effort 
to come up with an enhancement to the protection of the 
battery, which we have done, and that will be implemented over 
the next couple of weeks and months.
    Mrs. Maloney. I would like to commend you and your company 
for this innovative addition to the world and congratulate you 
on moving in the right direction to reduce our dependence on 
foreign oil and eliminating, I would say, harmful pollutants in 
the air. It is a wonderful technology. I am proud of my vote in 
support of the bailout of the auto industry. It is an American 
success story. It is the American dream, and I am very proud of 
you and your company. Thank you for being here today.
    Mr. Akerson. Thank you.
    Mr. Jordan. The gentleman from----
    Mr. Kucinich. Would the gentleman yield for just a moment?
    When I was out in the lounge there I saw my friend, Mr. 
Kelly, put the slide referring to the e-mails between GM and 
the Department of Treasury concluding that the U.S. Government 
was somehow running GM. Now, I just want my friend to know 
that, on this side, we really looked at that very deeply, and I 
wrote a letter dated June 29, 2011, which I don't know--I am 
guessing you may not have had a chance to see it. Because what 
this effectively did is to debunk any evidence of collusion in 
a June 29, 2011, letter to the chairman. And I would 
specifically cite pages 3 and 4 and 6 and 7.
    When I wrote this letter, I haven't received any response 
that would indicate that there was a dispute as to what was 
said. So I just wanted to share that with my friend and with my 
chairman, just so you know that we looked at this and I think 
we effectively debunked it.
    Mr. Jordan. Without objection, the----
    Mr. Kucinich. I would ask unanimous consent----
    Mr. Jordan. Without objection, the letter is entered into 
the record.
    [The information referred to follows:]
    [GRAPHIC] [TIFF OMITTED] 73448.013
    
    [GRAPHIC] [TIFF OMITTED] 73448.014
    
    [GRAPHIC] [TIFF OMITTED] 73448.015
    
    [GRAPHIC] [TIFF OMITTED] 73448.016
    
    [GRAPHIC] [TIFF OMITTED] 73448.017
    
    [GRAPHIC] [TIFF OMITTED] 73448.018
    
    [GRAPHIC] [TIFF OMITTED] 73448.019
    
    [GRAPHIC] [TIFF OMITTED] 73448.020
    
    [GRAPHIC] [TIFF OMITTED] 73448.021
    
    [GRAPHIC] [TIFF OMITTED] 73448.022
    
    Mr. Jordan. I would just point out the e-mails are the e-
mails, and when you have people in the administration telling 
people at the company how they should structure a press 
release, how they should write things, I think that speaks for 
itself as well.
    Mr. Kucinich. If I may, to my friend, Mr. Chairman, it is a 
tautology and it is true to say the e-mails are the e-mails. 
However, there is no evidence of collusion between GM and the 
Department of Treasury that would suggest that the government 
is running GM.
    I would say, given the philosophy of some of my friends on 
this side of the aisle and that GM has had such success 
recently, to assert that the government was running GM would 
probably create a feeling that the government is either more 
competent than you think it is or that GM is less competent 
than you think it is. I think either of those two assertions 
might be interesting to have to cognize.
    Mr. Jordan. To my good friend, I would certainly say I 
think everyone on the committee, everyone in Congress, every 
American is pleased by the success of General Motors. But that 
doesn't dismiss the fact that, even today, half of the board--
approximately half of the board were selected by the 
administration to sit on the board; that the taxpayers have 
invested $50 billion in this company; and that there are all 
kinds of incentives, tax breaks, etc., for people to purchase 
this product. Those are the facts.
    Mr. Kucinich. The gentleman is correct about that. But the 
e-mails were about the government's position----
    Mr. Jordan. You talk about the totality of the situation. I 
just want to make sure we saw the whole situation.
    Mr. Kucinich. My friend is correct in asserting how this 
thing was structured. I supported it. I know some of my friends 
did not.
    But I just want to say that if you look at the e-mails, 
they were about the government's role in characterizing what 
the government was doing, I believe not trying to direct GM.
    So I just want to thank you for giving me the opportunity 
to present that. Thank you.
    Mr. Jordan. And while we are on the subject, if I could 
also enter into the record the Committee on Oversight and 
Government Reform preliminary report on the effects of the 
bailouts and the policy of the Obama administration on this 
issue.
    Without objection, so entered.
    [The information referred to follows:]
    [GRAPHIC] [TIFF OMITTED] 73448.023
    
    [GRAPHIC] [TIFF OMITTED] 73448.024
    
    [GRAPHIC] [TIFF OMITTED] 73448.025
    
    [GRAPHIC] [TIFF OMITTED] 73448.026
    
    [GRAPHIC] [TIFF OMITTED] 73448.027
    
    [GRAPHIC] [TIFF OMITTED] 73448.028
    
    [GRAPHIC] [TIFF OMITTED] 73448.029
    
    [GRAPHIC] [TIFF OMITTED] 73448.030
    
    [GRAPHIC] [TIFF OMITTED] 73448.031
    
    [GRAPHIC] [TIFF OMITTED] 73448.032
    
    [GRAPHIC] [TIFF OMITTED] 73448.033
    
    [GRAPHIC] [TIFF OMITTED] 73448.034
    
    [GRAPHIC] [TIFF OMITTED] 73448.035
    
    [GRAPHIC] [TIFF OMITTED] 73448.036
    
    [GRAPHIC] [TIFF OMITTED] 73448.037
    
    [GRAPHIC] [TIFF OMITTED] 73448.038
    
    Mr. Kelly. If I could, Mr. Chairman.
    Mr. Jordan. Mr. Kelly gets the last word, Mr. Akerson.
    Mr. Kelly. I don't mean to have the last word, but we use 
this term ``the government's investment.'' We are talking about 
this body made a decision. This is taxpayer money. We are not 
some benevolent monarchy that showers favors on people. We take 
it out of hardworking American taxpayers' pockets and then we 
decide who gets it.
    I am appalled by this attitude down here that somehow we 
have the ability to pick and choose winners and losers not with 
our own money but with taxpayer money. And then we say, well, 
geez, you know what? We made a great decision for you taxpayer. 
Really? Really. $50 billion--that is a B. That is a lot of 
money, in a town that throws around trillions like it doesn't 
matter, and it doesn't matter to them because it is not their 
money.
    And I am going to tell you, Mr. Kucinich, you and I agree 
on a lot of things and we are entitled to our own opinions, but 
we are not entitled to our own facts. The truth of the matter 
is the government has been involved in this far deeper than 
they ever should have been to begin with.
    Mr. Akerson knows how to run GM. He has a history of 
running great companies. He does not need somebody who has 
never run a company to tell him how he is going to spend the 
money and we are going to shower this on you.
    I am going to tell you, if you want to throw money, if you 
want to throw $7,500 in a tax incentive and then Pennsylvania 
throw another $3,500 in a tax incentive and you want to talk 
about rate of sale and days supply, when it is your money that 
is on the shelf and it is your product that has to turn because 
it is your dollars and you are damn careful about how you put 
that money. This is taxpayer money that is being used.
    Mr. Kucinich. Will my friend yield?
    Mr. Kelly. No, I am not going to yield, because I got to 
tell you something. There is such a disconnect in this town 
with the way the real world works. General Motors does not need 
the help of the taxpayers to subsidize their cars. You want to 
move a market? Throw $7,500 on a Cruze. Not from the General 
Motors, from the taxpayers. You want to see that needle jump? 
You want to put thousands of people back to work? You can do it 
in a lot of different ways. But you know what? Stop taking it 
out of my wallet.
    And I am deeply offended by the attitude down here that 
somehow this merry-go-round is going to continue to spin and 
there is no consequence. There are a hell of a lot of important 
things that happen, unintended consequences, by people who have 
never done it, don't have any skin in the game, and are 
spending taxpayer dollars. That is absolutely ridiculous, and 
that is something we have to stop doing.
    This has nothing to do with Mr. Akerson. This has nothing 
to do with General Motors. This has to do with an 
administration that can't keep its fingers out of pie.
    Mr. Kucinich. If I may, in response----
    Mr. Jordan. The gentleman is recognized.
    Mr. Kucinich. Just briefly, this hearing was I thought 
about the safety of the Volt. It may have other dimensions. I 
want to tell Mr. Kelly, who is my friend, I did not vote for 
the bailout of the banks because I didn't want the government 
to be involved in picking winners and losers.
    Now, the American automotive industry was on the verge of 
collapse; and I felt, given the primacy of that American 
automotive industry to our strategic industrial base, including 
automotive, steel, aerospace, and shipping, that the prudent 
thing to do would be to make an attempt to rescue it. GM's 
management has helped to conclude it.
    But, again, I don't see--and to my good friend, we have 
strong differences of opinion on this point. I understand and 
respect that. I really do respect you. But I just think that 
the evidence of collusion that is being offered here hasn't 
been supported by the facts. And I again respect you greatly.
    Thank you.
    Mr. Jordan. With that, we want to thank Mr. Akerson. I know 
you are a busy man running a big company. We appreciate what 
you do, and we appreciate you taking the time to be with us 
this morning.
    Mr. Akerson. Thank you, Mr. Chairman.
    Mr. Jordan. All right, we will quickly move to our third 
witness. If the staff can help us set that up. We have to get 
out of here in about 15 minutes.
    I am pleased to welcome to the committee Mr. John German, 
who is a senior fellow and program director for the 
International Council on Clean Transportation. I apologize for 
the long time--for the way the arrangement had to be worked 
out. So you are the third panel. You get the final say. But, 
unfortunately, we may not have too many Members here.
    Mr. German. Mr. Chairman, good morning.
    Mr. Jordan. I forgot an important thing. We have to swear 
you in.
    Would you raise your right hand?
    Thank you.
    [Witness sworn.]
    Mr. Jordan. Let the record show the witness answered in the 
affirmative.
    Now you can go.

  STATEMENT OF JOHN GERMAN, SENIOR FELLOW, THE INTERNATIONAL 
                COUNCIL ON CLEAN TRANSPORTATION

    Mr. German. Mr. Chairman, good morning. My name is John 
German. I am a senior fellow and program director for the 
International Council on Clean Transportation. Before joining 
the ICCT, I spent 8 years in Powertrain Engineering at 
Chrysler, followed by 13 years with EPA's Office of Mobile 
Sources and 11 years with American Honda Motor Co.
    Thank you for the opportunity to present the ICCT's views 
on lithium-ion battery safety and on the role electric vehicles 
play in the proposed 2017-2025 CAFE and greenhouse gas 
standards. Briefly put, our position is that the issues raised 
by the Chevy Volt battery fire have been seriously 
misinterpreted by being pulled out of context, that the 
lithium-ion batteries used in vehicles are far safer than those 
used in laptops and are far safer than gasoline, and that in 
any case these issues are irrelevant to the proposed standards 
because manufacturers will not need plug-in electric vehicles 
to comply.
    The recall of almost six million Sony laptop battery cells 
illustrates that lithium-ion batteries have the potential to 
catch on fire. However, it is important to understand that 
lithium-ion refers to a broad family of chemistries that vary 
dramatically in voltage, capacity, durability, and safety, 
depending on the compounds used.
    Cars are not laptops. Every auto manufacturer has worked to 
develop lithium-ion chemistries that are much more abuse 
tolerant, as well as more durable. Safety is further improved 
with cooling systems, internal cell isolation, and external 
packaging of the battery pack.
    Every auto manufacturer also understands that any new 
automotive technology will be scrutinized minutely. Problems 
with safety, drivability, and reliability will be highly 
publicized and may create the perception that the new 
technology has problems. Thus, manufacturers take great pains 
to ensure problems with new technologies are minimized and 
start with low-volume production so that they can closely 
monitor and quickly correct any unanticipated problems.
    The proper context for the Chevy Volt battery fire is this:
    This was a single incident that occurred after a highly 
invasive crash test, not in-use.
    It took 3 weeks for the fire to start.
    The battery was not discharged after the crash test. Thanks 
to extensive outreach and education by Toyota and Honda and 
experience with hybrid vehicles, body shops and junkyards know 
to disconnect or discharge the battery pack before working on 
or storing a vehicle, just as they remove any fuel from the 
tank.
    The fire was extremely difficult for NHTSA to reproduce.
    There have been no fires related to lithium-ion batteries 
reported in the Volt, the Nissan Leaf, or any hybrid vehicle 
using lithium-ion batteries.
    More important, the relevant question is not whether 
lithium-ion batteries can cause a fire under extreme conditions 
but whether electric vehicles are safer than conventional 
vehicles. Let me quote here from a 2010 report by the National 
Fire Protection Association: ``In 2003-2007, U.S. fire 
departments responded to an average of 287,000 vehicle fires 
per year. These fires caused an average of 480 civilian deaths, 
1,525 civilian injuries, and $1.3 billion in direct property 
damage annually.''
    There are approximately 250 million vehicles in the United 
States, which means there is about one vehicle fire per year 
for every 1,000 vehicles. Such a high rate of vehicle fires 
would be completely unacceptable for any new technology or 
fuel. It is only pause of our long familiarity with gasoline 
fires that we accept this level of risk and fatalities, even as 
an isolated battery pack fire 3 weeks after a crash test with 
no one in the vehicle generates headlines for weeks.
    Electric vehicles are far safer than gasoline-fueled 
vehicles with respect to fires.
    As I noted, perceived risk can be very different from 
actual risk, and it is possible that publicity about rare 
lithium-ion battery fires could depress electric vehicle sales. 
However, even if this occurred, it will have no impact on the 
ability of manufacturers to comply with the proposed standards, 
as plug-in electric vehicles are not needed to meet them.
    The opportunities to reduce fuel consumption in the near 
term using conventional technology are much greater than most 
people realize. Computer simulations and computer-aideddesign 
are enabling vastly improved designs and technologies. On-board 
computer controls provide unprecedented optimization of vehicle 
operation. Rather than slowing down, the pace of technology 
development has accelerated.
    To give a single example, in 2001 the National Research 
Council estimated that turbocharging and downsizing would 
improve fuel economy by 5 to 7 percent. Current estimates are 
10 to 15 percent, as in the Ford EcoBoost engines. This 
doubling of the efficiency benefit in 10 years is not because 
the older estimates were wrong but rather due to rapid 
improvements in combustion and turbocharging technology. The 
efficiency estimates in the proposed rule are actually quite 
conservative.
    The enormous advantages to society from reducing the amount 
of transportation fuel we consume are well documented, from the 
energy security benefits of reduced oil imports and improved 
balance of trade to the economy-wide benefits of putting 
billions of dollars in fuel savings into consumers' pockets. 
Countries worldwide are adopting comparable efficiency 
standards. In this dynamic global auto market, the United 
States must be able to compete on the same technology terms.
    The written testimony I submitted to the committee contains 
more detail on these points, and I would be happy to address 
any questions. Thank you.
    [The prepared statement of Mr. German follows:]
    [GRAPHIC] [TIFF OMITTED] 73448.039
    
    [GRAPHIC] [TIFF OMITTED] 73448.040
    
    [GRAPHIC] [TIFF OMITTED] 73448.041
    
    [GRAPHIC] [TIFF OMITTED] 73448.042
    
    [GRAPHIC] [TIFF OMITTED] 73448.043
    
    [GRAPHIC] [TIFF OMITTED] 73448.044
    
    [GRAPHIC] [TIFF OMITTED] 73448.045
    
    [GRAPHIC] [TIFF OMITTED] 73448.046
    
    [GRAPHIC] [TIFF OMITTED] 73448.047
    
    [GRAPHIC] [TIFF OMITTED] 73448.048
    
    [GRAPHIC] [TIFF OMITTED] 73448.049
    
    Mr. Jordan. Thank you, Mr. German.
    I will be brief here.
    You have been here all morning. You heard when I asked Mr. 
Akerson about what the protocols are when there has been a 
crash and how you drain the battery--or disconnect the battery, 
excuse me, and drain the gas tank. I believe I got this right. 
In your testimony you just gave to the committee, you talked 
about disconnecting the battery. But in your written testimony, 
and the question I had here was, you say all junkyards know to 
discharge the battery pack before storing, just as they remove 
any fuel from the tank. So in your written testimony you used 
the same term that Mr. Akerson used, discharge the battery.
    Do you mean when you say ``discharge'' what Mr. Akerson 
described? Is that a term of art and it means the same thing?
    Mr. German. Yes, it means the same thing.
    Mr. Jordan. So if every junkyard knows to discharge the 
battery, why didn't NHTSA discharge the battery?
    Mr. German. I cannot answer that.
    In my written testimony I also may have--I wrote this over 
the weekend--and even the junkyards, I should have said, 
disconnect or discharge. The experience that we have----
    Mr. Jordan. But this is important. Because if everybody 
knows it except NHTSA, and NHTSA didn't do it, and that causes 
a fire, then that definitely puts into question the capability 
of NHTSA to deal with the issue that the ranking member has 
brought up, that all Members are concerned about, the safety. 
If they can't even figure out, hey, you are supposed to do what 
the guy at the junkyard knows you are supposed to do, that is a 
problem.
    Mr. German. Even the relatively small battery packs in 
conventional hybrids are powerful enough to kill people. Toyota 
and Honda, when they brought out the first hybrids 10 years 
ago, went through a great deal of trouble to educate emergency 
responders, fire departments, about the dangers and how to 
safely handle the vehicles, how to disconnect the battery pack, 
what to avoid. So this education didn't start with the Volt. It 
has actually been going on.
    Mr. Jordan. Well, fill me in. Because maybe you are 
educating me a little bit with what you just said there.
    So you said other car manufacturers have talked about what 
needs to happen for emergency responders. You were here 
earlier--Mr. Kelly has now left, but Mr. Kelly talked about the 
gloves and utensils and the protection that technicians have to 
use when working on an electric vehicle. Is that a concern for 
the volunteer fireman who has showed up at the scene who is 
trying to save a person's life? Is his life in greater danger 
if he does not know this is an electric car with a lithium-ion 
battery in it?
    Mr. Akerson. Yes, absolutely.
    Mr. Jordan. What kind of procedures does he or she have to 
take if they are an emergency personnel called to the scene 
trying to save someone's life? What kind of things do they have 
to do when dealing with this type of vehicle?
    Mr. German. They have been given training on location of 
high-voltage wires and what to avoid, for example, if using 
jaws of life. They have been given information on how to 
manually disconnect the battery pack if necessary. There is all 
kinds of safeguards. They shut it off automatically. But, just 
in case, they are still trained with how to deal with this.
    Mr. Jordan. And is it much more extensive procedures they 
have to go through with an electric vehicle compared to a 
conventional automobile without this larger battery?
    Mr. German. There is some additional that they have to deal 
with to make sure they avoid the electrical shocks. The danger 
is much less than from gasoline, but it is still something that 
they must be aware of.
    Mr. Jordan. So the volunteer fireman knows real concerns 
exist, the guy at the junkyard knows real concerns exist, and 
yet the folks at NHTSA seem not to have known real concerns 
exist. Is that fair?
    Mr. German. You are now wandering off into areas that I 
can't comment on.
    Mr. Jordan. You may not comment on, but you wrote about it. 
You said, all junkyards know to discharge the battery pack 
before storing, just as they know to remove any fuel from the 
tank. You also told me that Honda and Toyota and other 
manufacturers have done extensive training with emergency 
responders telling them they have to be careful. This is 
different. This is not just your normal car. This is different. 
So you need to know more things, go through more procedures--
this is what you told the committee--know more procedures, know 
more protocols, than you do with a typical car.
    And we have an administration who says, this car is the 
cat's meow. It is the most wonderful thing going, and we have 
to sell more of them.
    And you are telling me NHTSA, the organization in this 
administration charged with safety for consumers, for American 
purchasers, didn't know what the guy at the junkyard knows and 
what the volunteer fireman knows in my community.
    Mr. German. Right. Again, those are questions better 
directed at NHTSA.
    The one things I can say is that there has not been a 
recorded case of a battery pack catching on fire. So it may 
have just been oversight. I don't know.
    Mr. Jordan. I yield to the gentleman from Ohio.
    Mr. Kucinich. Thank you very much, Mr. Chairman.
    Mr. German, in your testimony, you allude to pictures of 
blazing laptops and a recall of almost six million Sony 
lithium-ion battery cells in 2006 have caused people to have a 
misconception that all lithium-ion batteries are highly 
flammable. Now, can you explain the different types of lithium-
ion batteries and what your expert opinion is about the safety 
of the batteries being used in vehicles like the Volt?
    Mr. German. Yes. Unfortunately, there is a wide variety of 
lithium-ion batteries out there, but the ones that are being 
developed for automotive use are all far safer than what is 
used in consumer laptops.
    Mr. Kucinich. So then do you concur with other witnesses 
that lithium-ion poses no greater risk than gasoline vehicles 
for fire hazard and, like gasoline vehicles, those risks can be 
managed?
    Mr. German. The gasoline vehicles have far higher risks 
than lithium-ion.
    Mr. Kucinich. Why?
    Mr. German. Because gasoline is highly flammable. It can 
actually explode under certain conditions. It will ignite under 
a fairly wide range of air-to-fuel ratios. Whereas lithium-
ion--it is because of how the lithium-ion batteries are 
packaged that they are more isolated from contact.
    But the other main thing here is that you can design 
lithium-ion chemistries in a way--for example, if you exclude 
oxygen from the chemistry, putting oxygen into the cell causes 
it to be much more flammable when it reacts to the lithium. So 
just by excluding oxygen you have taken a major step toward----
    Mr. Kucinich. So what is the role of oxygen in car fires 
then? Because there is 200,000 car fires every year in the 
United States where gasoline ignites in seconds. What is the 
role in that?
    Mr. German. That is because the gasoline is exposed to the 
oxygen. The gasoline needs oxygen in order to burn.
    Mr. Kucinich. So is it your testimony that these lithium-
ion batteries that are used in the Volt are much safer than 
gasoline-powered cars with internal combustion engines?
    Mr. German. Yes. General Motors has chosen a cell chemistry 
that is quite good on safety, and they have also gone to a lot 
of trouble to protect the battery pack in case of an accident, 
and there is no doubt in my mind that the system is far, far 
safer than gasoline.
    Mr. Kucinich. You received a pretty prestigious award for 
excellence in automotive policy analysis, did you not?
    Mr. German. Yes. The Society of Automotive Engineers 
established an award for excellence in automotive policy 
analysis. I was the first recipient, not so much because I did 
better analyses but because my reputation is that my 
conclusions are always based on the analyses.
    Mr. Kucinich. Thank you very much, Mr. Chairman.
    Mr. Jordan. The gentleman from Virginia is recognized.
    Mr. Connolly. Thank you, Mr. Chairman.
    Welcome, Mr. German.
    Mr. German, you were asked some questions on NHTSA's 
testing and how come NHTSA didn't get it when tow truck 
companies got it and storage facilities and junkyards and so 
forth. Are you an expert on NHTSA and its methodology?
    Mr. German. No, I am not.
    Mr. Connolly. Have you ever worked for NHTSA?
    Mr. German. Really the only times I have worked with NHTSA 
is in connection with the vehicle CAFE standards. There have 
been instances where I have gotten involved in safety impacts 
of vehicles as it relates to fuel economy such as light-
weighting of vehicles. So that is my one area that I have 
interacted with NHTSA on the safety front.
    Mr. Connolly. Let me ask a follow-up question to that. Were 
you involved in this particular test?
    Mr. German. No, I was not.
    Mr. Connolly. So you have no firsthand knowledge of what 
they did, how they did it, why they did it, and why it differs 
from other experience?
    Mr. German. That is correct.
    Mr. Connolly. For all you know, this is an isolated--as 
your predecessor at that table just testified, sometimes tests 
are outliers. They don't really indicate anything, other than 
something must have gone wrong. Is that fair?
    Mr. German. That is fair. I think it is also fair to say 
that NHTSA will always discharge the battery after a crash test 
in the future.
    Mr. Connolly. Okay. Are you aware of any consumer who has 
experienced a fire, explosion, or any other direct threat to 
his or her safety in driving the Volt?
    Mr. German. Not related to the battery pack, no.
    Mr. Connolly. In response to Mr. Kucinich, you were saying 
that, actually, the risk--the safety risk from a gas-fueled 
vehicle is actually higher than that of a lithium-ion-battery 
propelled vehicle. Would it be fair to say, in understanding 
your response to Mr. Kucinich, that actually the probability of 
an explosion or a safety incident with the mechanism of fueling 
the vehicle is higher when it is gas fired than it is with, 
frankly, an electric vehicle fueled by a battery?
    Mr. German. It is far higher. We have, on average, over one 
person die per day from vehicle-related fires, but people are 
so used to it that it is not national news anymore.
    Mr. Connolly. I yield to the chairman.
    Mr. Jordan. I was just going to say that is not the 
question. The question is, if you drain the gas tank, discharge 
the 12-volt battery but don't discharge the bigger battery, 
then the question is which is a greater safety concern?
    Mr. German. Even in that situation, the gasoline is still a 
much, much greater concern. It is not just that the battery 
pack was ruptured in the crash test. It is that the coolant 
leaked into the battery. Without that coolant leakage, there 
would have been nothing for the lithium-ion chemistry to react 
with. So it required that combination. And it is not a common 
situation at all.
    Mr. Jordan. Okay.
    Mr. Connolly. Reclaiming my time--and I thank the chair for 
that clarifying question--but, of course, actually my concern 
is that unintentionally, of course, we are having a hearing 
here on the safety of an electric vehicle, and I wouldn't want 
American consumers to get the wrong impression by virtue of the 
fact that there is a congressional hearing, just the fact that 
we do that, raising some questions, could perhaps plant doubts 
in the minds of potential consumers, doubts that are not so 
far, based on the testimony we have heard here today, 
justified.
    As a matter of fact, the public can feel somewhat reassured 
based on the testimony we have heard today that they are 
actually safer than the normal car you drive with gas. Now that 
doesn't mean there aren't some concerns and questions that have 
to be answered, as the chairman indicated. But I just wanted to 
put it in context to reassure the public that may be watching 
that we don't think there is some huge challenge here, 
especially given the fact that many of us want to see a future 
for the electric vehicle.
    Speaking of which, since I am going to run out of time, 
your area of expertise is especially clean technologies, 
vehicular technologies. I noted that the International Energy 
Agency said that, actually, because of the administration's 
clean car standards, the United States' dependence on foreign 
oil is actually going to decline over the next 25 years. Could 
you corroborate that and/or elaborate on that?
    Mr. German. Yes. The standards will increase the efficiency 
of vehicles considerably, and that will reduce the amount of 
fuel consumed. It is actually equivalent to drilling new oil 
wells in the United States. It has the same impacts on reducing 
our oil imports and on economy-wide benefits.
    Mr. Connolly. Mr. Chairman, my time has just run out. But I 
just think that is actually an extraordinary statement and an 
extraordinary fact and a very heartening development when we 
are looking at the role of technology and lessening our foreign 
oil dependence.
    I yield back.
    Mr. Jordan. I thank the gentleman, and I thank our witness, 
and we are adjourned.
    [Whereupon, at 11:49 a.m., the subcommittee was adjourned.]

                                 <all>

</pre></body></html>
